<html>
<title> - MASS TRANSIT IN THE NATIONAL CAPITAL REGION: MEETING FUTURE CAPITAL NEEDS</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
  MASS TRANSIT IN THE NATIONAL CAPITAL REGION: MEETING FUTURE CAPITAL 
                                 NEEDS
=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 21, 2001

                               __________

                           Serial No. 107-89

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform
                       U. S. GOVERNMENT PRINTING OFFICE
81-350                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          ------ ------
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

                Subcommittee on the District of Columbia

                CONSTANCE A. MORELLA, Maryland, Chairman
TODD RUSSELL PLATTS, Pennsylvania    ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia,               DC
------ ------                        DIANE E. WATSON, California
                                     ------ ------

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                     Russell Smith, Staff Director
              Victoria Proctor, Professional Staff Member
                          Matthew Batt, Clerk
                     John Bouker, Minority Counsel
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 21, 2001...............................     1
Statement of:
    Hecker, Jay Etta, Director of Physical Infrastructure Issues, 
      General Accounting Office, accompanied by Rita Grieco, 
      Senior Analyst, Physical Infrastructure Issues, General 
      Accounting Office; Decatur Trotter, chairman, Board of 
      Directors, Washington Metropolitan Area Transit Authority; 
      Richard A. White, general manager, Washington Metropolitan 
      Area Transit Authority; Jennifer L. Dorn, Administrator, 
      Federal Transit Administration; Phil Mendelson, vice 
      chairman, National Capital Region Transportation Planning 
      Board; and Donna Sorkin (appearing in the place of Pamela 
      Holmes) public board member, Access Board, accompanied by 
      David Capozi, director, technical programs, Access Board...    14
Letters, statements, etc., submitted for the record by:
    Davis, Hon. Thomas M., a Representative in Congress from the 
      State of Virginia, prepared statement of...................    11
    Dorn, Jennifer L., Administrator, Federal Transit 
      Administration, prepared statement of......................    87
    Hecker, Jay Etta, Director of Physical Infrastructure Issues, 
      General Accounting Office, prepared statement of...........    17
    Mendelson, Phil, vice chairman, National Capital Region 
      Transportation Planning Board, prepared statement of.......   100
    Morella, Hon. Constance A., a Representative in Congress from 
      the State of Maryland:
        Letter dated November 20, 2001...........................   137
        Prepared statement of....................................     4
    Norton, Hon. Eleanor Holmes, a Representative in Congress 
      from the District of Columbia, prepared statement of.......     8
    Holmes, Pamela, chair, Access Board, prepared statement of...   109
    Trotter, Decatur, chairman, Board of Directors, Washington 
      Metropolitan Area Transit Authority, prepared statement of.    37
    White, Richard A., general manager, Washington Metropolitan 
      Area Transit Authority, prepared statement of..............    47


  MASS TRANSIT IN THE NATIONAL CAPITAL REGION: MEETING FUTURE CAPITAL 
                                 NEEDS

                              ----------                              


                       FRIDAY, SEPTEMBER 21, 2001

                  House of Representatives,
          Subcommittee on the District of Columbia,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Constance A. 
Morella (chairman of the subcommittee) presiding.
    Present: Representatives Morella, Watson, Norton, and 
Davis.
    Staff present: Russell Smith, staff director; Heea 
Vazirani-Fales, counsel; Robert White, communications director; 
Matthew Batt, clerk/legislative assistant; Shalley Kim, staff 
assistant; Victoria Proctor and Howie Denis, professional staff 
members; Jon Bouker, minority counsel; and Jean Gosa, minority 
assistant clerk.
    Mrs. Morella. Good morning. The Subcommittee on the 
District of Columbia is convening our seventh hearing of the 
107th Congress, and I want to welcome all of those who have 
come here to hear the testimony and the distinguished panel of 
witnesses who will be testifying. I look forward to receiving 
the informative testimony in response to the General Accounting 
Office's July 2001, report, ``Mass Transit: Many Management 
Successes at WMATA, but Capital Planning could be Enhanced,'' 
the official title. We'll examine WMATA's efforts to address 
GAO's recommendations, examine WMATA's responses to operational 
and maintenance problems, and determine the accessibility of 
the transit system to customers with disabilities.
    I want to welcome our subcommittee members who are here and 
those who will join us later. We're joined by the ranking 
member, Congresswoman Eleanor Holmes Norton, and our newest 
Member of Congress, Congresswoman Watson. I know that 
Congressman Davis will be joining us and Congressman Platts has 
a transportation markup.
    As you know, these are unusual and troubling times, and 
there are duties that are conflicting.
    I want to start off by, of course, thanking again the WMATA 
Board, General Manager Dick White, Metro's managers and 
employees for their agency's response to the terrible events on 
September 11th. In times of danger, public transportation plays 
a pivotal role in getting our citizens back home safely and 
quickly, and by nearly all the accounts that I've heard Metro 
accomplished that task very well last Tuesday. As a matter of 
fact, you continue to fulfill that responsibility. You show 
that Government can operate effectively in a crisis situation.
    Disaster preparation is just one of the areas that we're 
going to be discussing today. We'll also be examining the 
subway system's operational performance, how Mr. White and his 
management team are preparing for the future, and Metro's 
accessibility to disabled riders.
    Regarding the ability of disabled riders to use the system, 
I'm particularly interested in learning about the extent of 
Metro's efforts to make its elevators, escalators, and other 
infrastructure more user friendly for blind and disabled 
people.
    The General Accounting Office in its July report on WMATA 
gave the agency good marks for addressing safety concerns and 
other operational factors. But, as anyone who has visited a 
subway station lately and maybe had to walk down the stairs 
because the escalator was out of service, and then waited on a 
crowded platform, and stood shoulder-to-shoulder with other 
passengers on the train can testify, Metro faces some 
significant challenges in its near future. Ridership is growing 
steadily, and yet the system is showing signs of aging. That 
means Metro must find a way to make room for many new riders 
without overworking the system.
    Our hearing today will focus on how Metro intends to meet 
these twin challenges, as well as meet the expectation of its 
users.
    The continued success of WMATA is absolutely critical for 
this region. A healthy transit system helps reduce congestion 
on our highways and pollution in our air. It makes employment 
centers accessible to our workers. And it can help reduce 
sprawl in our suburbs.
    Metro Rail believes its ridership, which is roughly 600,000 
passengers a day, could double in the next 25 years. Is the 
subway system capable of handling such growth? Do we have the 
capacity to run longer trains? Can we and how do we expand the 
size of platforms? How can we relieve the awful parking 
situation at some of our outer stations? Passengers who use the 
Shady Grove Garage in my District, for example, have to get 
there before 7 or 7:30 a.m., or they don't get a spot for 
parking. Also, where does it make the most sense to build new 
lines and what factors should be driving the decision as to 
which stations and lines get built?
    Finally, there is a pressing question raised by the GAO 
report. Should Metro change the way it presents its long-term 
capital program? The GAO came to the conclusion that, in a time 
of shrinking resources and increasing demands, Metro ought to 
present various options for its infrastructure funding 
requests. For example, ``If we get 'X' amount of money we will 
be able to complete Projects A, B, and C. If we get less, we 
will only be able to do one or two of the three.'' I think this 
could be an important change because it will force the region 
to address dead on the issue of what its transportation 
priorities are and how much money it should be providing for 
Metro expansion--how much it should be providing for not only 
expansion, but maintenance and other non-operational needs. And 
it would allow the decisionmakers to make informed choices, 
which is vital at a time when we simply do not have the money 
to do everything that we want.
    It is imperative that Metro has the long-term plans in 
place to ensure the system can continue to provide adequate 
mass transit options well into the 21st century. And these are 
just some of the questions facing us as we open this hearing. 
But the answers will have substantial impacts on how the region 
grows over the next several decades, how it handles that 
growth, how it will pay for that growth, and what the 
consequences are if nothing is done.
    I know Metro has begun working on answers to some of these 
questions, and I look forward to hearing about the progress 
that has been made.
    [The prepared statement of Hon. Constance A. Morella 
follows:]
[GRAPHIC] [TIFF OMITTED] 81350.001

[GRAPHIC] [TIFF OMITTED] 81350.002

    Mrs. Morella. And now it is my pleasure to recognize the 
distinguished ranking member of the District of Columbia 
Subcommittee, Congresswoman Eleanor Holmes Norton.
    Ms. Norton. Thank you, Mrs. Morella.
    I want to pause before giving my brief remarks to thank the 
Chair for continuing with this hearing and for the sense of 
normalcy she has created in this subcommittee. We have been 
about the work of the District of Columbia as if there had not 
been a terrible tragedy on September 11th and have been working 
closely together on the business of the city, some of which 
will emerge in a markup to follow this meeting and plans for 
future markup.
    I want also to say that, as the Chair has indicated, that 
this is a terrible time for the country, and a time for the 
Congress, when we are not only doing our normal business at the 
end of the fiscal year, but business that no one ever imagined 
we'd have to do. I am not going to be able to stay for this 
entire hearing. I am on the Aviation Subcommittee. We have a 
hearing as we speak on security for aviation, an issue of 
utmost concern to this city and this region, because if people 
can't fly here safely, even if we get National Airport open, 
they won't fly, so we've got double duty here, both to get it 
open and to send out a sense of confidence that it is secure so 
that people will use the airport when it is open, so I've got 
to be at that hearing for part of the time.
    Mrs. Morella knows that we are waiting for the aviation 
bill to go on the floor, because if we don't do something to 
make sure that the airlines are in financial shape to get up 
and fly, then, of course, nothing else matters. No great power 
has ever remained great or can remain great without airlines in 
this day and age, so we must find the appropriate and 
proportionate assistance for the airlines, from whence other 
things will flow, such as the tourism industry of this city and 
region.
    In addition, I've got to go into the city because the 
industry, the tourism industry, is having a major meeting with 
the Mayor and me on the fate of that industry. All of this 
simply must be done at the same time.
    WMATA figures deeply into this concern. WMATA is one of the 
principal reasons that this is a successful tourist city. It 
has been a very successful operation.
    WMATA, indeed, uncharacteristically had a series of mishaps 
involving passengers traveling underground on the Metro Rail 
that drew the attention of the subcommittee in the summer of 
2000. Tom Davis, who was then our Chair, Connie Morella, then 
vice-chair, and I requested a GAO study because of the 
overwhelming importance of safety to the system and because of 
the indispensable position of WMATA to the economy of this 
region and, of course, its central place in the lives of our 
constituents.
    Our hearing today focuses on the GAO findings on safety and 
on actions taken to remedy the problems that led to the study, 
and, of course, we are also interested in the overall condition 
of WMATA and in issues that have been raised about access by 
disabled residents. Inevitably, as well, following the 
September 11th attack, we will have questions for WMATA 
concerning security issues.
    We are relieved by the written GAO findings that WMATA has 
in place procedures to identify and minimize general safety 
risks to passengers. However, at the time of our request for 
this GAO investigation, our subcommittee was concerned with 
transit mishaps, not the unthinkable events of September 11th. 
We can only hope that WMATA has used greater foresight to 
prepare for emergencies than the Federal Government 
demonstrated during the attack on the Pentagon.
    We all recognize how fortunate this region is to have a 
103-mile Metro Rail system that is close to state-of-the-art, 
second-largest in passenger service next to New York City, and 
the envy of the rest of the country. Already, local 
jurisdictions here are planning extensions of Metro beyond the 
original system as envisioned in 1969 when WMATA started 
building. The District's anticipated New York Avenue Metro stop 
currently underway may become a model for the region, with one-
third of the funds provided by local businesses, one-third by 
the D.C. government, and one-third by the Federal Government.
    The best news about WMATA is the vote of confidence 
regional riders are showing in the system by the very 
significant increase in their use of Metro. This use, however, 
is fraught with irony. I can remember when the region wanted to 
attract more riders to the system. Now Metro is confronting the 
challenge of too many riders, given the existing capacity of 
the system.
    Let's do something about that, too. Let's keep Metro not 
only going but growing.
    I look forward to the testimony of today's witnesses to 
clarify old as well as new issues that Metro must face. I very 
much welcome each and every one of you to this hearing.
    Thank you very much, Madam Chair.
    Mrs. Morella. Thank you, Ms. Norton.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]
[GRAPHIC] [TIFF OMITTED] 81350.003

[GRAPHIC] [TIFF OMITTED] 81350.004

    Mrs. Morella. I'm pleased to recognize my predecessor Chair 
of this subcommittee, Tom Davis, who, as Ms. Norton mentioned, 
asked for the GAO report with Ms. Norton and myself.
    Mr. Davis.
    Mr. Davis of Virginia. Madam Chair, I will try to be brief 
because I want to get to the panel.
    I want to thank you for organizing today's hearing. I want 
to applaud WMATA's Metro Rail and Metro Bus services for their 
handling of the sudden influx of riders after the terrorist 
attacks on September 11th. I understand there was some 
confusion initially caused by the news media, as there was 
throughout the city and on Capitol Hill, but WMATA ensured that 
the systems ran as smoothly as possible under the 
circumstances. And since that tragic day WMATA has worked with 
DOD, the Department of Defense, to expand its hours of 
operation and accommodate the increased ridership in light of 
the tightened security and blocked roads surrounding the 
Pentagon.
    Last October this subcommittee held a hearing that examined 
a wide range of issues relating to WMATA's operations, 
including its budget process, communications system, safety, 
and its processes for measuring performance standards and 
gauging customer satisfaction. At that time it was clear that 
WMATA faced many challenges ahead. The most immediate is still 
increased ridership, which is putting a strain on the 25-year-
old system's resources.
    Therefore, I am encouraged by the GAO's reports regarding 
WMATA's efforts to improve its organization and management. I 
look forward to hearing from our witnesses about the system 
improvements that are being implemented. I'm still concerned 
that the organization lacks a fully developed long-term 
budgeting plan, as highlighted in the GAO report.
    Thank you.
    Mrs. Morella. Thank you, Mr. Davis.
    [The prepared statement of Hon. Thomas M. Davis follows:]
    [GRAPHIC] [TIFF OMITTED] 81350.005
    
    [GRAPHIC] [TIFF OMITTED] 81350.006
    
    Mrs. Morella. And now the newest member of this 
subcommittee, we welcome her so much, Congresswoman Diane 
Watson.
    Ms. Watson. Thank you, Madam Chair.
    It's a pleasure to be able to sit on this committee. I have 
been very interested in the District of Columbia and how it 
progresses. I want you to know back in the 1980's, when I 
carried a bill in the California State Senate to do a value 
capture project for our new subway, we went around the world to 
see the rapid transit systems, the Metro Rail system. The first 
place we came was here to Washington, DC. I was very impressed 
with your design, with your efficiency, and we learned a lot.
    I have watched it very closely. I have used it when I've 
come here for long, extensive periods of time, and I am pleased 
to be a member of this subcommittee focusing on D.C. and 
looking at WMATA and seeing how I can assist all of our 
colleagues and you in keeping this system moving forward.
    Welcome to those who are going to make presentations. I 
will be reading the GAO report, several pages here, as my 
midnight reading.
    Thank you so much.
    Mrs. Morella. Thank you, Ms. Watson.
    Our distinguished panelists include: Jay Etta Hecker, 
Director of Physical Infrastructure Issues for GAO, accompanied 
by Rita Grieco, Senior Analyst, Physical Infrastructure Issues, 
GAO. We have the Honorable Decatur Trotter, who is the chairman 
of the Board of Directors of the Washington Metropolitan Area 
Transit Authority; Richard White, general manager of the 
Washington Metropolitan Area Transit Authority; the Honorable 
Jennifer L. Dorn, who is the Administrator of the Federal 
Transit Administration; Honorable Phil Mendelson, vice chair of 
the National Capital Region Transportation Planning Board; and 
Donna Sorkin, appearing in the place of Pamela Holmes, public 
board member of the Access Board.
    It is the tradition and the policy of the full committee 
and all its subcommittees to swear in those people who will be 
testifying, so I would ask you to stand, raise your right 
hands, and I would ask Barry McDevitt, the chief of police of 
the Metro Transit Police Department, to also stand to take the 
oath.
    If you'll raise your right hands.
    [Witnesses sworn.]
    Mrs. Morella. The record will show everybody responded 
affirmatively. And I'd like to ask you, too, so that we can 
hear all the panelists and have a chance for some questions, if 
you would try to confine your comments to 5 minutes. We even 
have our little lights to signal--the green, yellow, and red. 
And you don't have to conform to your written statement, which 
will be included in its totality in the record. You can give a 
synopsis or change it any way you'd like.
    So, starting off that way, let's start off in the order in 
which you are seated--Jay Etta Hecker. Thank you.

      STATEMENTS OF JAY ETTA HECKER, DIRECTOR OF PHYSICAL 
 INFRASTRUCTURE ISSUES, GENERAL ACCOUNTING OFFICE, ACCOMPANIED 
BY RITA GRIECO, SENIOR ANALYST, PHYSICAL INFRASTRUCTURE ISSUES, 
GENERAL ACCOUNTING OFFICE; DECATUR TROTTER, CHAIRMAN, BOARD OF 
  DIRECTORS, WASHINGTON METROPOLITAN AREA TRANSIT AUTHORITY; 
RICHARD A. WHITE, GENERAL MANAGER, WASHINGTON METROPOLITAN AREA 
  TRANSIT AUTHORITY; JENNIFER L. DORN, ADMINISTRATOR, FEDERAL 
TRANSIT ADMINISTRATION; PHIL MENDELSON, VICE CHAIRMAN, NATIONAL 
CAPITAL REGION TRANSPORTATION PLANNING BOARD; AND DONNA SORKIN 
(APPEARING IN THE PLACE OF PAMELA HOLMES) PUBLIC BOARD MEMBER, 
ACCESS BOARD, ACCOMPANIED BY DAVID CAPOZI, DIRECTOR, TECHNICAL 
                     PROGRAMS, ACCESS BOARD

    Ms. Hecker. Thank you, Madam Chair. Good morning to you, 
Representative Norton, and other members of the committee.
    As you all know, we are here to speak on the report that 
you requested, and I will summarize it so maybe you don't even 
have to read it. I think we can really give you the highlights 
and the essence of it, and then you'll hear the reactions.
    Mrs. Morella. You're assuming we haven't already read it. 
[Laughter.]
    Ms. Hecker. The report, as you know, and as you requested, 
focused on three very broad areas: the extent of the safety and 
security measures and initiatives within WMATA; the operating 
and maintenance initiatives and challenges facing the 
organization; and, finally, what kind of planning, selection 
process, and budgeting was in place for dealing with major 
capital projects.
    I'd like to try to just briefly summarize it and give you 
the flavor of it before I go into each of them very briefly.
    Basically, in all three areas--safety and security, 
operations and maintenance, and capital budgeting--the 
organization faces substantial challenges, and most of you have 
alluded to those. Many of them are pretty clearly evident.
    What we did find, because there had been a rash of 
incidents and there was some concern about the readiness of the 
organization, we did find that, in fact, significant policies 
and procedures and initiatives were in place to deal with two 
of those three areas--basically, the safety and security 
measures and dealing with the kind of loads of passengers, 
dealing with operating and maintenance concerns.
    However, in the capital investment area we basically did an 
approach that looked at the best practices of leading 
organizations and investment and capital, and, while there were 
many initiatives in place in the organization following those 
best practices, we found there were some really important 
opportunities to improve. Let me again go back and recap each 
of those pretty quickly.
    In the safety and security area, the good news was that 
there really is a rigorous set of policies and procedures in 
place to deal with both safety and security risks confronting 
the system. The real problems that had come to light in the 
1996-1997 areas, there were several very critical reports, and 
I have to say that there has been a real commitment within the 
organization elevating the level of attention, giving it much 
more serious commitment within the organization, and really a 
pervasive commitment to this within the organization. There's a 
monitoring of stations. There are procedures. And they've 
invited outside review and basically have both a peer 
organization and Ms. Dorn's organization have given a very good 
sign to the organization that they're really very good and, 
while they continue to confront challenges, they really are 
among the best in terms of having the critical procedures.
    This even covers the terrorism area, which, of course, we 
all realize is far more serious and it presents more grave 
challenges than any of us imagined, but in this area, as well, 
WMATA is really in the lead nationally. They are the only 
system in the country to be testing the use of sensors to 
detect and mitigate the possible use of chemical and biological 
agents in the system. It is an important new initiative. It is 
still in the testing phases. But it really shows that the 
organization is in the front line and really providing 
leadership.
    This has actually been evidenced by the fact that they have 
been sought out by FTA really to help develop national 
guidelines for being prepared for and mitigating terrorist 
attacks on transit systems.
    So the safety, security area, the challenges are real. They 
can't ever be totally mitigated, but having those kind of 
commitments, organizational commitments, the level of 
commitment in the organization, it's clearly in place.
    Now, the organization--the operations and maintenance area, 
again, you've all outlined the very self-evident challenges 
that the system faces. The crowds are at crush levels many 
times. It has grown very rapidly to become the second-largest 
heavy rail transit system in the country and really has a 
number of challenges. And while the system, of course, was just 
completed, much of the infrastructure is actually 20 years old 
and approaching either requirements for major upgrades or 
replacement.
    Now, when we looked in this area we again found, again 
within the last few years, major initiatives in place, a 
comprehensive program called the infrastructure renewal program 
looking at needs for upgrades to elevators, escalators, rail 
cars, and also the ordering of new cars. We've seen challenges 
they've confronted in those new cars, but that has been dealt 
with. And the system really has been dealing with the fact that 
there are a number of challenges in this area.
    In the longer term, there are more serious challenges, 
given the projections for the likely doubling of ridership by 
2025. This has, again, led to a comprehensive study within the 
organization. They call it the ``Core Capacity Review.'' And 
this isn't just the new lines, the expansion that is being 
talked about in different areas, but really the capacity of the 
system, itself, the inner system, to absorb the ridership that 
would result. And this isn't, as I said, fancy new lines. 
Sometimes it is widening the platforms and other such 
initiatives.
    The challenge there in this core capacity relates to the 
third area, and that's the planning and budgeting. Again, we 
found very positive features of their program, but the 
challenges were that there really wasn't an effective strategic 
planning in place, there wasn't the framework for really 
prioritizing the full range of capital investments, and, as you 
noted, there really hasn't been an approach that focuses on the 
anticipated shortfalls.
    I see my light is on, so I'm going to skip over perhaps 
more detail and leave it for questions about this area.
    But, in sum, I think the organization is in a very complex 
environment politically with the multiple jurisdictions. It is 
one of the very few transit systems that doesn't have a 
dedicated source of tax revenues to project and plan for long-
term investments. But I think we have an organization here that 
we can be proud of that adapts to changing circumstances, that 
learns and grows and deals with the significant challenges that 
they are facing.
    That concludes the prepared statement, and, of course, I 
would be pleased to take any questions. Thank you, Madam Chair.
    Mrs. Morella. Thank you very much. We will have some 
questions for you. Thank you for the study that you did.
    [The prepared statement of Ms. Hecker follows:]
    [GRAPHIC] [TIFF OMITTED] 81350.007
    
    [GRAPHIC] [TIFF OMITTED] 81350.008
    
    [GRAPHIC] [TIFF OMITTED] 81350.009
    
    [GRAPHIC] [TIFF OMITTED] 81350.010
    
    [GRAPHIC] [TIFF OMITTED] 81350.011
    
    [GRAPHIC] [TIFF OMITTED] 81350.012
    
    [GRAPHIC] [TIFF OMITTED] 81350.013
    
    [GRAPHIC] [TIFF OMITTED] 81350.014
    
    [GRAPHIC] [TIFF OMITTED] 81350.015
    
    [GRAPHIC] [TIFF OMITTED] 81350.016
    
    [GRAPHIC] [TIFF OMITTED] 81350.017
    
    [GRAPHIC] [TIFF OMITTED] 81350.018
    
    [GRAPHIC] [TIFF OMITTED] 81350.019
    
    [GRAPHIC] [TIFF OMITTED] 81350.020
    
    [GRAPHIC] [TIFF OMITTED] 81350.021
    
    [GRAPHIC] [TIFF OMITTED] 81350.022
    
    [GRAPHIC] [TIFF OMITTED] 81350.023
    
    [GRAPHIC] [TIFF OMITTED] 81350.024
    
    Mrs. Morella. I didn't know that you were not planning to 
testify, Ms. Grieco, but if there's anything you wanted to 
briefly add at this point, you may.
    Ms. Grieco. I would just point out in the area of capital 
planning WMATA did do an excellent study of the condition of 
its existing assets, and it is just in some of the areas of 
planning for the future, the system expansion projects, we see 
an opportunity for them to take a more expanded role.
    Mrs. Morella. Thank you.
    Honorable Decatur Trotter, good to see you again, sir.
    Mr. Trotter. Good morning, Chairwoman Morella and members 
of the subcommittee. I'm happy to be here. With all those great 
statements that have been made, very little for me to do, but I 
am Decatur Trotter and I am the chairman of the Board of 
Directors of the Washington Metropolitan Area Transit 
Authority, and with your permission, Madam Chair, I would like 
to submit my formal statement for the record.
    Mrs. Morella. Without objection, that will be the case.
    Mr. Trotter. OK. Thank you.
    WMATA in many ways is the region. We are a unique, 
multijurisdictional operating entity. We cut across State 
boundaries and make decisions based on regional consensus. We 
must work in partnership with all levels of governments to 
accomplish our mission of providing quality transportation 
services to the national capital region.
    The Board recognizes as the GAO report stated that WMATA 
is, in some ways, a victim of its own success. The challenges 
facing WMATA are largely the result of growing ridership 
demands, coupled with aging equipment and infrastructure 
throughout the transit system.
    These twin challenges have put tremendous stress and strain 
on the system. Our very able general manager, Richard White, is 
going to discuss in greater detail some of the programs and 
projects WMATA undertook to deal with issues of aging pains and 
growing pains as we often refer to this phenomenon.
    Before I yield to Mr. White, I just want to take this 
opportunity to make a few statements on behalf of the Board of 
Directors.
    The WMATA Board of Directors is very pleased with the GAO 
report issued in July entitled, ``Many Management Successes at 
WMATA, but Capital Planning Could be Enhanced.'' The report has 
pointed us in the direction that we were already heading. We 
believe that Metro managers have very capably dealt with 
unprecedented and unexpected ridership growth, while at the 
same time rising to the demands of aging infrastructure. The 
WMATA board has been vigilant in its oversight role in ensuring 
that the Transit Authority provides safe, reliable, affordable 
service within available resources.
    We have the responsibility to our customers, to the region, 
to the Federal Government, to the Congress, and to all 
taxpayers to protect its $10 billion public investment made in 
the marvelous transit system that we call ``America's Subway.'' 
An investment, I might add, that would cost $22 billion to 
construct today. We must ensure that we make the reinvestments 
necessary for safety and reliability, as well as those 
investments needed to accommodate the growing ridership that is 
occurring and will continue in the foreseeable future. We 
welcome the opportunity to discuss WMATA's funding needs and 
look forward to working closely with you and the Congress to 
make sure that WMATA has the necessary resources to meet the 
ridership demands of a rapidly growing national capital region.
    In closing, I would like to express my personal gratitude 
to WMATA employees who, with their regional MTA New York, New 
Jersey Transit, and Path colleagues, provided safe passage for 
millions of Americans last Tuesday.
    Thank you again for the opportunity to address this 
subcommittee.
    Mrs. Morella. I thank you.
    [The prepared statement of Mr. Trotter follows:]
    [GRAPHIC] [TIFF OMITTED] 81350.025
    
    [GRAPHIC] [TIFF OMITTED] 81350.026
    
    [GRAPHIC] [TIFF OMITTED] 81350.027
    
    [GRAPHIC] [TIFF OMITTED] 81350.028
    
    [GRAPHIC] [TIFF OMITTED] 81350.029
    
    [GRAPHIC] [TIFF OMITTED] 81350.030
    
    [GRAPHIC] [TIFF OMITTED] 81350.031
    
    Mrs. Morella. Again I reiterate my agreement with you about 
the incredible job that WMATA did during that catastrophe. As a 
matter of fact, I noted last night after the President's 
message to the country and to the world so many people taking 
WMATA to go back and forth, as really has become necessary.
    The general manager, Richard White, I now recognize you, 
sir.
    Mr. White. Chairwoman Morella, Ms. Norton, Mr. Davis, and 
Ms. Watson, good morning. My name is Richard White, and I am 
the general manager of the Washington Metropolitan Area Transit 
Authority. I am grateful for this opportunity to appear before 
you today.
    I want to observe first that the events of September 11, 
2001, are still with us here today and will be with us for some 
time to come. I am proud to say that the family of 10,000 WMATA 
employees is eager to continue contributing whatever we can do 
to the work that remains in our metropolitan area in the 
aftermath of the attacks. We are all pained by the devastation 
that also took place in New York City, and I would like to take 
this opportunity to compliment the several transit agencies in 
the New York metropolitan area that did a Herculean job of 
keeping that area functioning during the immediate aftermath of 
those tragic events.
    Here in the Nation's Capital WMATA has a long history of 
dedication to moving our region's residents where they need to 
go safely and securely. Today we stand ready to help Congress, 
the Federal agencies, and, of course, the State and local 
jurisdictions we serve to do whatever it takes to achieve 
preparedness for our Nation and for our region, while still 
providing safe and reliable transit service to our residents, 
many of whom are employees of the Federal Government.
    Yesterday, at the request of the Department of Defense, 
WMATA agreed to open the transit system at 5 a.m., a half hour 
earlier than normal, for a period of up to 30 days to help 
relieve congestion and parking problems around the Pentagon and 
elsewhere in the region. In addition, we have established 
supplemental satellite parking areas and additional bus service 
to help accommodate more riders.
    Today, we offer the suggestion that another important way 
to help facilitate a more orderly movement of people in our 
metropolitan area would be the formal implementation of a well-
defined system of staggered arrival and departure schedules for 
Federal employees, since some 35 to 40 percent of Federal 
workers in the region use Metro on a regular basis. This could 
encourage private employees to follow suit and benefit the road 
system, as well as the transit system.
    Committee members and staff have already received my 
written testimony, which addresses the three aims for today's 
hearing in detail. My oral statement today will briefly address 
each of these three issues.
    Almost a year ago I testified before this committee on 
challenges and opportunities facing our transit system. At the 
direction of the committee, the General Accounting Office 
studied WMATA's major programs--safety and security, operations 
and maintenance, and capital planning and funding--over a 
period of several months. WMATA is pleased that the resulting 
report published in July 2001 gives WMATA a clean bill of 
health overall. The report observes that WMATA has been a 
victim of its success, that challenges have largely resulted 
from increase in ridership growth on our bus and rail system 
during a period of time when our equipment and infrastructure 
are showing their age. As the GAO report said, Metro is 
experiencing both growing pains and aging pains.
    We welcome the reports four specific recommendations for 
improvement, which, in fact, point us in a direction in which 
we are already heading. WMATA's staff and Board of Directors 
have already moved on these recommendations.
    Concerning the first recommendation that the Authority 
develop a long-range strategic plan, we do, indeed, intend to 
develop an updated strategic plan. Our last one was done in 
1990. And our Board has directed that this effort be completed 
within a year from now by September 2002.
    We have also moved on the GAO's second recommendation, the 
development of a long-term capital plan that is integrated, 
properly documented, and linked to WMATA's overall goals and 
objectives. Our one comment on one element of this GAO 
recommendation is that almost all of our capital funding 
depends upon decisions made by others that are beyond our 
control. In fact, WMATA's funding is provided by other 
governmental bodies in response to our statement of needs. If 
we were to present a capital plan that specified a lower level 
of funding than what was actually required, it would inevitably 
result in a reduced funding level.
    On the third GAO recommendation, formalizing our internal 
capital decisionmaking process, WMATA has been working toward 
this end for a series of improvements initiated about 3 years 
ago and others that are more recently underway.
    Addressing the fourth GAO recommendation, WMATA is actively 
discussing with its jurisdictional partners an expanded role 
for our agency in regional transportation project and program 
planning.
    The committee's second aim today, examining WMATA's 
response to operational and maintenance problems, leads me 
again to the events of September 11th. Last week WMATA showed 
that it has what it takes to respond quickly and effectively in 
a major crisis and during a period of heightened anxiety to 
move our traveling public in a safe and reliable manner. We are 
proud that on September 11th, when the Federal Government and 
indeed the entire region, needed our services urgently, we were 
ready and we delivered. An unprecedented number of customers 
provided positive feedback to us. To quote one of them, ``Never 
again will I criticize you for running over-crowded trains or 
any of the other small inconveniences. You were there for us 
when we really needed you and we appreciate it.''
    Indeed, as the GAO report noted, the Federal Transit 
Administration and the American Public Transportation 
Association rate WMATA's safety and security programs and its 
performance very good. We believe we proved that last week 
during the crisis.
    The GAO report, itself, speaks favorably of WMATA's 
intervention strategies and corrective action programs to 
improve performance and reliability. One the statistic that 
makes this point is the number of passenger off-loads from our 
trains, which have declined from an average of 7.2 per day in 
the fourth quarter of fiscal year 1999 to an average of 4.6 in 
the fourth quarter of fiscal year 2001, even though Metro Rail 
was carrying almost 100,000 more passengers per day.
    The third aim of today's hearing, examining Metro's 
accessibility for customers with disabilities, offers another 
area of demonstrable progress at WMATA. Already regarded as one 
of the most accessible transit systems in the United States, 
WMATA has paid even more attention to its performance in this 
area. We have implemented an eight-step plan to address 
inconsistent performance in our para-transit service known as 
``Metro Access.'' In addition, we are rapidly responding to 
FTA's preliminary findings of its key station assessment report 
that was recently conducted.
    In short, although we have much to be proud of, we know 
that our record in certain areas of system accessibility can be 
improved, and we are addressing these areas aggressively and 
proactively.
    In summary, I would observe that WMATA is doing a very good 
job overall, from the challenges and accomplishments discussed 
in the GAO report to our improving performance in making Metro 
more accessible to our success in rising to the occasion on 
September 11th, Metro continues to be a vital part of the 
everyday lives of the region's residents and an agency that can 
and does deliver.
    If I leave you today with no other message, I want to make 
clear that the most urgent challenge WMATA faces today is 
upward spiraling demand for our service at a time when our 
system is aging. I can't over-emphasize the fact that the 
accomplishments I have cited here today have all taken place 
during a period of time when we have been experiencing the 
highest growth rate of any major transit system in the United 
States. This tremendous surge in demand makes it even clearer 
that we urgently need to address the issue of funding for mass 
transit in the national capital region.
    Using the GAO study and report as an outline for action, we 
are eager to go forward from this hearing to work with all of 
our stakeholders, including partners that make up the Council 
of Governments Transportation Planning Board, to insure that we 
have the financial resources necessary to serve our national 
capital region at a level of performance that it has come to 
expect and demand.
    I want to take this opportunity to thank the chairwoman and 
the subcommittee members for working so closely and 
constructively with WMATA staff, and I would also like to thank 
the GAO again for its many months of work with us. I would also 
like to thank the Federal Transit Administration, the U.S. 
Department of Transportation, and, of course, the U.S. Congress 
for the strong support that they have demonstrated over the 
years. I believe that, as full partners in the policy process, 
we will continue to make progress toward our vision of a region 
in which everyone benefits from a well-run and adequately 
funded transit system.
    Thank you again.
    Mrs. Morella. Thank you, Mr. White, and thank you for your 
concise written testimony going into each one of those areas 
that was represented.
    [The prepared statement of Mr. White follows:]
    [GRAPHIC] [TIFF OMITTED] 81350.032
    
    [GRAPHIC] [TIFF OMITTED] 81350.033
    
    [GRAPHIC] [TIFF OMITTED] 81350.034
    
    [GRAPHIC] [TIFF OMITTED] 81350.035
    
    [GRAPHIC] [TIFF OMITTED] 81350.036
    
    [GRAPHIC] [TIFF OMITTED] 81350.037
    
    [GRAPHIC] [TIFF OMITTED] 81350.038
    
    [GRAPHIC] [TIFF OMITTED] 81350.039
    
    [GRAPHIC] [TIFF OMITTED] 81350.040
    
    [GRAPHIC] [TIFF OMITTED] 81350.041
    
    [GRAPHIC] [TIFF OMITTED] 81350.042
    
    [GRAPHIC] [TIFF OMITTED] 81350.043
    
    [GRAPHIC] [TIFF OMITTED] 81350.044
    
    [GRAPHIC] [TIFF OMITTED] 81350.045
    
    [GRAPHIC] [TIFF OMITTED] 81350.046
    
    [GRAPHIC] [TIFF OMITTED] 81350.047
    
    [GRAPHIC] [TIFF OMITTED] 81350.048
    
    [GRAPHIC] [TIFF OMITTED] 81350.049
    
    [GRAPHIC] [TIFF OMITTED] 81350.050
    
    [GRAPHIC] [TIFF OMITTED] 81350.051
    
    [GRAPHIC] [TIFF OMITTED] 81350.052
    
    [GRAPHIC] [TIFF OMITTED] 81350.053
    
    [GRAPHIC] [TIFF OMITTED] 81350.054
    
    [GRAPHIC] [TIFF OMITTED] 81350.055
    
    [GRAPHIC] [TIFF OMITTED] 81350.056
    
    [GRAPHIC] [TIFF OMITTED] 81350.057
    
    [GRAPHIC] [TIFF OMITTED] 81350.058
    
    [GRAPHIC] [TIFF OMITTED] 81350.059
    
    [GRAPHIC] [TIFF OMITTED] 81350.060
    
    [GRAPHIC] [TIFF OMITTED] 81350.061
    
    [GRAPHIC] [TIFF OMITTED] 81350.062
    
    [GRAPHIC] [TIFF OMITTED] 81350.063
    
    [GRAPHIC] [TIFF OMITTED] 81350.064
    
    [GRAPHIC] [TIFF OMITTED] 81350.065
    
    [GRAPHIC] [TIFF OMITTED] 81350.066
    
    [GRAPHIC] [TIFF OMITTED] 81350.067
    
    [GRAPHIC] [TIFF OMITTED] 81350.068
    
    Mrs. Morella. Ms. Dorn, it is a pleasure to welcome you to 
our hearing. Congratulations on your appointment.
    Ms. Dorn. Thank you very much.
    The committee has a copy of my written testimony, so I 
would, as my colleagues before me, like to summarize several of 
the key points.
    As all of this committee is aware, being part of the city 
that hosts WMATA, public transportation in the United States is 
blessed with diversity across the country. It is geographically 
dispersed within communities everywhere, it is diverse in its 
delivery mechanisms, and, most of all, it is shaped to meet the 
unique features of the areas it serves. That is both a blessing 
and a challenge, and on September 21st, shortly after one of 
the greatest tragedies that America has faced, this diversity 
means that we regulate at the Federal Transit Administration 
and provide important service in transit agencies throughout 
the country in rail and bus systems, but also electric trolley 
systems, cable cars, street cars, ferries, and taxi-like 
systems.
    We provide 9 billion trips collectively on public 
transportation every year. The hallmark of the Nation's public 
transportation system is--has, in fact, been the freedom that 
they provide to an America on the go. Unfortunately, that means 
that many of us in every aspect of American life has to look 
again at the paradigm that we have perhaps, on some occasions, 
taken for granted.
    Indeed, while public transportation is the safest mode of 
travel, this historic freedom and openness that we've enjoyed 
in a system like this comes with a special set of security 
concerns.
    Obviously, airports are in a relatively closed environment. 
They are more readily controlled. And though we know even that 
is difficult to constrain, the security measures can be more 
focused than they can in the Nation's public transportation 
system.
    As the members of this committee know, the Federal Transit 
Administration is not involved in the day-to-day operations in 
that regard. Those functions have historically been operated by 
the local citizenry.
    For public transportation then en masse, there is a unique 
set of countermeasures required when we face a situation of the 
security type of 2 weeks ago. And, indeed, all of the major 
transit systems, from the FTA's perspective, are in a high 
state of alert. The security plans do take into account some 
potential terrorist attacks. FTA has talked with every major 
operator in the country within 48 hours of the tragedy and 
found, again, that all of the major transit systems had 
immediately deployed security personnel at key areas, whether 
they be bus or rail. They have increased the inspection of 
their facilities and their infrastructure, including bridges 
and tunnels and tracks. They are reinforcing critical 
transportation systems such as electric substations, operation 
control centers, signal rooms. All of this has been and will 
continue to be critical to the safe operation of our system in 
public transportation.
    A few short hours after the tragedy, I had the opportunity 
to speak with the chairman of the New York Metro, Peter Calico, 
and he said to me, ``If I had known that 24 hours after this 
tragedy, when two of most significant structures of New York 
had fallen, that the major transportation system throughout New 
York, with the exception of one small area, would be in full 
operation, I would never have believed it.'' He also said 
that's the wonderful thing about New York, and I would agree 
with that.
    I would also maintain that the kind of readiness and 
drills, preparedness plans, leadership that WMATA has 
displayed, both in the recent past and immediately past, 
demonstrates that this system is up and ready, and I'm 
confident that could handle any security matter that was 
brought to their attention.
    On the other hand, we have to recognize that nothing can be 
completely rid of risk, and we are, unfortunately, living in a 
new reality. We're not going to be able to guard against every 
risk, and we must make improvements and refinements, and I 
think all transit agencies would agree, especially those in 
high alert, because they are probably more alert to the fact of 
risk.
    I cannot emphasize enough the importance of security 
training and awareness to combating terrorism, and we at the 
FTA, and I know in agencies throughout the country, are 
redoubling our efforts there. The Secretary has charged every 
mode to be looking ahead in this new area of vulnerability, and 
FTA is an eager and has been an eager participant in that 
respect.
    Public transportation needs to keep communities safe and 
moving, and we intend to do that in partnership with the many 
fine transit agencies across the country.
    With respect to the issue of WMATA's overall performance, I 
wanted to make a couple of comments about FTA's perspective.
    First of all, as has been echoed by my colleagues before 
me, even those who do not run the system, it is, in fact, a 
very excellent and effective system, particularly in rail. They 
have been growing by leaps and bounds and have handled the 
growth well, from our perspective. And that is in no small part 
as a result of the outstanding leadership and the innovative 
ideas that have been brought forth by that leadership. With 
respect to innovative financing and a businesslike approach, 
that is what is required, and it is our hope that every system 
across the country could be so proactive in that sort of arena. 
It's particularly important for a system like WMATA that does 
not have the benefit of a predictable source of funding.
    And so, while FTA agrees with the recommendations of the 
GAO and we, indeed, are confident that WMATA is making a 
concerted effort to accomplish these goals, they do so in a 
very difficult environment, which is, of course, no secret to 
this subcommittee.
    From an oversight perspective, then, we believe they are 
doing--that WMATA is doing a good job in using the funds we 
provide in meeting the requirements as the law has required.
    In the past 2 years, we know that WMATA has begun serious 
long-range financial planning and planning for capacity 
expansion this year. These are tremendously important efforts, 
and we know there is more to be done, and we're working closely 
with the Transportation Planning Board. I know how critical 
that has been to other systems across the country that you have 
a seamless fabric of community, public, and private agencies 
that seek to provide public transportation.
    With respect to the para-transit service, I would like to 
briefly comment about this. Obviously service to the disability 
community continues to be a challenge, not only to WMATA but to 
systems throughout the country. I am not convinced that FTA has 
it right yet in terms of ensuring that we do the best job of 
oversight and the best job of problem solving, and I view that 
both of those efforts are imperative from our agency's 
perspective. We have every evidence that there is a spirit of 
cooperation and problem solving in WMATA, and we're eager to 
pursue vigorously the challenge that we face in providing 
effective transportation for the disability community.
    Thank you very much.
    Mrs. Morella. Thank you very much, Ms. Dorn.
    [The prepared statement of Ms. Dorn follows:]
    [GRAPHIC] [TIFF OMITTED] 81350.069
    
    [GRAPHIC] [TIFF OMITTED] 81350.070
    
    [GRAPHIC] [TIFF OMITTED] 81350.071
    
    [GRAPHIC] [TIFF OMITTED] 81350.072
    
    [GRAPHIC] [TIFF OMITTED] 81350.073
    
    [GRAPHIC] [TIFF OMITTED] 81350.074
    
    [GRAPHIC] [TIFF OMITTED] 81350.075
    
    [GRAPHIC] [TIFF OMITTED] 81350.076
    
    [GRAPHIC] [TIFF OMITTED] 81350.077
    
    [GRAPHIC] [TIFF OMITTED] 81350.078
    
    [GRAPHIC] [TIFF OMITTED] 81350.079
    
    Mrs. Morella. Now I am pleased to recognize the Honorable 
Phil Mendelson, the vice chairman of the National Capital 
Region Transportation Planning Board. Welcome.
    Mr. Mendelson. Thank you and good morning, Madam Chairman 
and members of the subcommittee. I am Phil Mendelson. I am 
first vice chair of the National Capital Region Transportation 
Planning Board. Mayor John Mason of Fairfax, who chairs the 
Transportation Planning Board, could not be here today.
    The TPB is the metropolitan planning organization for the 
Washington region. We are responsible for implementing Federal 
requirements for transportation planning. Our members include 
elected officials from the District, Maryland, and Virginia; 
representatives from the three Departments of Transportation; 
WMATA; and others.
    The Washington region is facing a crisis in transportation 
funding. This is a crisis that even now is affecting our 
economy and quality of life. Unless we take action, the 
situation will get worse. Our region needs an increase of more 
than 50 percent in funding for highways and transit. We are 
facing a gap of at least $1.75 billion per year--that is, $43 
billion over the next 25 years. This is a gap between the 
funding we have available and what is needed both to maintain 
our current transportation system and to accommodate the growth 
in travel that will be generated by our increasing population 
and growing economy.
    The Washington area is unusual in that we have no dedicated 
regional sources of funding for regional transportation 
improvements. We are one of the very few metropolitan regions 
in the country without a dedicated source of funding for its 
rail transit system. Because of this, we have strived to put 
the need for enhanced funding mechanisms on the front burner of 
regional concerns. It is our goal of our TPB vision adopted in 
1998 that was the focus of a regional transportation summit we 
convened last November. It was reiterated in a TPB resolution 
adopted this past spring, recognizing that WMATA's 
preservation, rehabilitation, and expansion, and the funding 
therefor are a regional priority, and we will emphasize it 
again this November 28th in a second regional transportation 
summit.
    Finding adequate funding for WMATA is crucial because WMATA 
is a critical element in the viability of our transportation 
system. WMATA has the second highest ridership in the country. 
Our system of roads and highways would fail utterly without 
WMATA. We could not possibly attain compliance with the Clean 
Air Act without WMATA. Indeed, I chair the TPB's Task Force on 
Conformity with our Clean Air Act Attainment Plan. Virtually 
every proposal to reduce pollution in the mobile sector 
involves increasing the use of public transit.
    The kind of security measures we are seeing now at Federal 
garages and parking lots is going to put further demands on 
WMATA, which we have already seen with the Defense Department's 
request for earlier Metro Rail hours. We must recognize that 
all of WMATA's funding needs relate to and affect capacity.
    First, there is long-term maintenance, the infrastructure 
renewal program. WMATA must maintain its system adequately so 
that it is reliable. Unreliability reduces demand and 
indirectly capacity.
    Second, WMATA must expand its capacity to meet projected or 
desired ridership growth on the existing system.
    Third, there are numerous proposals to expand the system, 
such as rail extensions, that would also expand capacity. Yet, 
according to the current 25-year constrained, long-range plan, 
the three States have committed to fund only 90 percent of the 
costs to maintain the system, to fund zero percent of the cost 
to accommodate ridership growth, and to fund 100 percent of 
already-adopted system expansion projects, but there are many 
more expansion projects that have not been adopted, and so 
funding is critical.
    We are aware that in July--that the July GAO report 
suggests that WMATA develop contingency plans for potential 
funding shortfalls. On this I would like to make two points.
    First, although this has not been formally discussed by the 
TPB, I think most of if not all of us agree with WMATA that, 
because its funding is provided by other governmental bodies in 
response to a statement of needs, a capital plan that provides 
a contingency--i.e., a lower level of funding than what is 
actually required--would inevitably result in a reduced funding 
level.
    Second, WMATA is a key player in the regional 
transportation planning process, a process that establishes 
priorities and is coordinated through the TPB. Although this 
process can appear complex and unwieldy at times, it is, in 
fact, an effective method for determining which transportation 
solutions will best serve the public and for obtaining the 
political and financial support that capital projects need to 
move forward.
    For instance, our planning process includes corridor 
studies, which examine a variety of options, including public 
transit, to meet transportation needs. These corridor studies 
are typically undertaken by the States in partnership with 
WMATA, local governments, and the TPB. Once a project is 
recommended by a study, funding sources are identified. That is 
the only way the project can be included in the constrained, 
long-range plan, the region's federally required 25-year long-
range transportation plan.
    In short, it is our view that, in facing WMATA's uncertain 
long-term capital funding, the solution is to press harder for 
the funds rather than to urge WMATA to develop contingency 
proposals.
    We greatly appreciate this opportunity to testify.
    Mrs. Morella. Thank you, Councilman Mendelson.
    [The prepared statement of Mr. Mendelson follows:]
    [GRAPHIC] [TIFF OMITTED] 81350.080
    
    [GRAPHIC] [TIFF OMITTED] 81350.081
    
    [GRAPHIC] [TIFF OMITTED] 81350.082
    
    [GRAPHIC] [TIFF OMITTED] 81350.083
    
    [GRAPHIC] [TIFF OMITTED] 81350.084
    
    [GRAPHIC] [TIFF OMITTED] 81350.085
    
    Mrs. Morella. Now we shall recognize Donna Sorkin, who is 
the public board member, Access Board.
    Ms. Sorkin. Good morning, Madam Chairman and subcommittee 
members. I'm Donna Sorkin, and I'm executive director of the 
Alexander Graham Bell Association for the Deaf and Hard of 
Hearing and a Presidential appointee to the Access Board. I am 
pleased to testify this morning in the absence of the Board's 
Chair, Pamela Holmes, on the accessibility of WMATA to people 
with disabilities.
    The Access Board is a small, independent Federal agency 
dedicated to accessibility to people with disabilities 
comprised of 25 members, 13 of whom are Presidential appointees 
like me and most of whom have disabilities. I am hard of 
hearing.
    The Board has a staff of 30 people and responsibilities 
under separate laws for separate laws that require 
accessibility to buildings and facilities, transportation 
vehicles, telecommunications, and electronic and information 
technology. WMATA is directly impacted by two of these laws, 
which I will focus on today.
    First, the Access Board is charged with developing 
accessibility guidelines for and enforcing the Architectural 
Barriers Act [ABA], which requires that certain federally 
funded buildings and facilities be accessible.
    Second, the Access Board is charged with developing the 
Americans with Disabilities Act Accessible Guidelines [ADAAG], 
and I'd like to begin with the Architectural Barriers Act.
    In order to understand the Access Board's enforcement 
activities under the ABA in relation to WMATA, a brief bit of 
history is in order. The ABA was the Nation's first Federal 
accessibility law and was enacted in 1968. In 1970, Congress 
amended the ABA to specifically require that facilities 
constructed under the National Capital Transportation Acts of 
1960 and 1965 and the Washington Metropolitan Transit Compact 
be accessible.
    Despite this legislation, WMATA's transit stations were not 
designed to be accessible and did not have elevators, 
accessible paths of travel, and other accessibility features. A 
lawsuit was filed in 1972 directed by the situation, and in 
1973 the court enjoined WMATA from opening any transit stations 
until they complied with the current accessibility standards.
    The applicable standards then were developed--that were 
developed in 1961 and reaffirmed in 1971 as a private consensus 
standard through the American National Standards Institute 
[ANSI]. The ANSI standards were very minimum and consisted of 
only six pages. Today ADAAG is 71 pages long and requires 
greater accessibility than the old ANSI standards.
    The Access Board began processing ABA complaints in 1977, 
and since then we have received 28 complaints involving WMATA's 
transit stations. The complaints usually concern accessible 
parking, accessible routes, and elevators.
    For example, one complaint about the Van Dorn Street 
Station involved several accessibility features which are 
delineated in the Board's written statement. As a result of the 
Access Board's investigation of the complaint, WMATA made 
improvements in these accessibility features.
    Another complaint involved elevator buttons. The complaint 
was filed by a quadriplegic with limited arm strength who 
noticed that WMATA was installing new elevator buttons that 
were recessed into the face of the panel. Such buttons are 
difficult if not impossible for individuals with limited 
strength and dexterity to operate, and, as a result of the 
Access Board's investigation, WMATA took action to ensure that 
all elevator buttons in its transit stations are either flush 
with the face of the panel or raised above the panel.
    The Access Board has also received complaints about 
elevators frequently being out of service. For people with 
disabilities, this is more than just an inconvenience. It is 
equivalent to closing the station to them. Imagine the public 
reaction if all riders were told that Metro Station or Gallery 
Place was closed for a few days or weeks and they had to use 
another station. This is a common experience for people with 
disabilities.
    The Americans with Disabilities Act [ADA], requires that 
key stations in existing transit systems be accessible. Each 
transit authority is responsible for designating its key 
stations, and then must submit a plan to the Federal Transit 
Administration [FTA], that establishes milestones for bringing 
those stations into compliance with ADAAG. WMATA submitted its 
key station plan to the FTA in 1992, designating 45 of its 85 
transit stations as key stations.
    ADAAG requires greater accessibility at key stations than 
provided under the old ANSI standards. For example, the old 
ANSI standards had no provisions for making public address 
systems accessible to people who are deaf and hard of hearing. 
When public announcements in transit stations are made, I 
cannot understand them. ADAAG requires that, when public 
address systems are used to convey information to the general 
public in transit facilities, a means must be provided for 
conveying the same or equivalent information for people who 
cannot hear the information. WMATA has now installed additional 
electronic methods of conveying that information.
    Public text telephones, or TTYs, and telephones with volume 
control now must be required in stations to provide greater 
accessibility, and these were not required under the old ANSI 
standards.
    ADAAG requires that detectable warnings be placed on 
platform edges of transit stations. Detectable warnings are 
small, truncated domes designed to alert people who are blind 
or visually impaired that they are approaching the edge of the 
platform. The old ANSI standards did not require detectable 
warnings. In 1998, WMATA began installing detectable warnings, 
and they are now in all of the key stations.
    The ADA has resulted in improvements in accessibility and 
at WMATA's key stations. People with disabilities use WMATA to 
get to work and to enjoy the many activities available in the 
Washington metropolitan area. Think for a moment of the 
visually impaired mother who can now take her child to the 
Smithsonian using WMATA without fear of inadvertently getting 
too close to the platform station. And consider the deaf or 
hard-of-hearing executive who is running late for a meeting and 
needs to call her colleagues to tell them that she's on her 
way. The ADA and ADAAG have benefited them and millions of 
other people with disabilities who use WMATA and other transit 
systems across the country to live their lives like other 
Americans.
    Thank you, Madam Chairman, for the opportunity to provide 
this testimony.
    Mrs. Morella. I want to thank you very much for the 
excellent testimony.
    [The prepared statement of Ms. Holmes follows:]
    [GRAPHIC] [TIFF OMITTED] 81350.086
    
    [GRAPHIC] [TIFF OMITTED] 81350.087
    
    [GRAPHIC] [TIFF OMITTED] 81350.088
    
    [GRAPHIC] [TIFF OMITTED] 81350.089
    
    [GRAPHIC] [TIFF OMITTED] 81350.090
    
    [GRAPHIC] [TIFF OMITTED] 81350.091
    
    [GRAPHIC] [TIFF OMITTED] 81350.092
    
    [GRAPHIC] [TIFF OMITTED] 81350.093
    
    Mrs. Morella. I want to thank all of you.
    Now we'll start our round of questioning, and try to keep 
our questions to about 5 minutes and back and forth until we 
appear to have the major questions answered.
    I think I'm going to get right into the center of things in 
terms of preparedness for emergencies and security, so I guess 
I would start off with the GAO and ask, you know, Metro--we've 
all said that Metro acted in an exemplary fashion with the 
recent disaster. I just wondered what your assessment is of 
Metro's emergency preparedness to handle different kinds of 
threats, you know, like terrorist attacks on stations.
    I'm going to direct that to you, Ms. Hecker, and then I 
will expand the question for Manager White.
    Ms. Hecker. What we did was we looked at the procedures and 
we didn't rigorously evaluate them, so we're really talking 
about what kind of procedures were in place.
    What we did find is that they clearly had a lot of 
preparedness activity. There were exercises and there were 
initiatives across the board to deal with the full range of 
both safety and security risks, and activities continue to 
identify new risks, as we've heard today. So it was really a 
question of an attitude and a posture of preparedness and a 
constant learning and putting appropriate procedures and 
improvements in place.
    Mrs. Morella. Did you want to add anything, Ms. Grieco? I 
could tell.
    Ms. Grieco. I would just add that WMATA does have very 
detailed procedures for instructing its employees as to how 
they should determine the threat level, what actions they 
should take when an incident occurs. I mean, WMATA's role is 
generally one of crisis management, so they would secure the 
scene and make sure passengers are evacuated, but it's really 
the local fire and police authorities who would have to respond 
if there were, you know, a terrorist attack.
    Mrs. Morella. Mr. White, that gets into the whole question 
of looking at last Tuesday. There was a great exodus from 
Federal buildings, tourist attractions, etc., and many people, 
including some members of my own staff, didn't know whether or 
not Metro was going to be operating, whether it had been 
closed. The District of Columbia didn't hold a press conference 
until later that afternoon to advise people. And I just 
wondered, did WMATA attempt to notify the public about their 
status of operation before the city had its press conference?
    Mr. White. Yes, Madam Chair. We had, within minutes of the 
first crash into the World Trade Center, increased our level of 
preparedness under our police standard operating procedures to 
a threat level Charlie, and immediately upon the crash into the 
Pentagon had activated our command center.
    And when we do that, we bring all of our--all of the 
various parts of our organization together into one command 
center location. We have all of our safety and security 
personnel, our operations personnel, our media relations 
personnel, our physical--people who take care of our physical 
plant personnel all working in one room accessing the same 
information that comes from a multitude of sources, and we have 
televisions, of course, in these rooms, and we have cameras in 
our stations that broadcast back to these rooms.
    When we immediately heard the first erroneous report--I'm 
not exactly sure what the initial source of that erroneous 
report was--that we were closed down, our media relations 
people instantaneously contacted that news media outlet, and 
then others, that those reports were false reports and that we 
were, indeed, operational. So I think that, although there was 
a period of time, I think it was a very brief period of time 
where there were some outlets that were reporting that we were 
closed, and we made it clear. And, for the record, we were open 
the entire time.
    We did have, of course, a couple of our stations that were 
closed, and some people were confusing that message with the 
message that the system was closed. Obviously, the Pentagon 
Station was closed, and then that closed immediately upon the 
incident at the Pentagon, and then at 11 a.m., National Airport 
Station was closed.
    Other things that we did, for example, we stopped our 
service over the Potomac, our Yellow Line service over the 
Potomac, the bridge that we have that goes over the Potomac, 
based upon information we had that was going on at that moment 
in time of additional threats of airplanes on their way into 
the metropolitan area.
    So I think there was some confusion. We responded 
immediately to try and correct the confusion, to let everybody 
know that we were fully functional, and I think the 
organization did an outstanding job in that regard, and 
everything comes from our access to information. And not only 
do we set up our own command center, we immediately sent out 
personnel over to the Metropolitan Police Department's command 
center, Chief Ramsey and all the folks that he gathers over 
there, and then, once the Emergency Management Agency created 
their command center, we sent somebody over there. And also the 
Pentagon had its own field command center under the 
jurisdiction of the military, but we had people over there. And 
we also have a full-time officer who is assigned to the FBI 
Counter-Terrorism Task Force on a full-time basis.
    So we had all the information there was to be had, quite 
frankly, and more than most people in our metropolitan area had 
when they were making decisions, so we were the best informed 
entity, I believe, to make the decisions. Unfortunately, there 
were some--was some misinformation that the media spread, but I 
think we got it corrected pretty quickly.
    Mrs. Morella. I'm pleased to hear that. And I wondered 
also, in the event of an emergency which disrupts the flow of 
bus--of traffic buses, their routes, and they have to be 
altered, how is that information conveyed to passengers and to 
the bus drivers?
    Mr. White. Well, of course, we've got to hear it ourselves, 
first.
    Mrs. Morella. Yes.
    Mr. White. And I think there was some confusion. I know 
Chief Ramsey was concerned that they didn't get quick 
notification on things like the 14th Street Bridge being shut 
down and HOV lanes being shut down, and we have buses that run 
in HOV lanes, so obviously we had our share of difficulty 
navigating through it.
    But, you know, we were able, through our command center 
structure--and, I might add, although others suffered from 
communication failures, we had no communication failures, based 
upon the types of equipment that we use, including our own 
portable radio system, where we're able to communicate over the 
radio waves to our people in our locations. But we have our 
internal phone system that operates through the Authority's 
internal switch, so we were not accessing and competing with 
the phone capacity that goes in or outside, and many people did 
have difficulty using land lines and even cell phones, as well, 
so we did not experience any of those kinds of problems.
    So we were fully communicative to all of the aspects of our 
organization. We were both receiving instant information from 
them and communicating it out.
    A person staffs our bus desk, and that's the chief 
operating officer for the bus system, so we had all of our 
executives who were in there, and he was making sure that 
information on street closures was passed to our people, detour 
information was passed to our people. Our people were reporting 
to us street closures, and we were passing that information on.
    So yes, our bus system did experience the same kind of 
trouble that people driving their automobile experienced, but I 
must say that our operators were enormously creative in their 
ability to navigate through that, and a fair amount of the 
positive feedback we got were from customers who were on our 
buses who were, quite frankly, amazed at how well our bus 
drivers did in the middle of all that traffic chaos.
    Mrs. Morella. You're pleased with your working with or the 
cooperation that you get from the Police Department. I know 
we've got Barry McDevitt here. And the communication, you are 
satisfied with that stream of communication?
    Mr. White. Yes, Madam Chair. We immediately, as I said, 
sent our personnel under the regular procedures to the MPD 
Command Center the moment the MPD Command Center set up their 
operation, and they get a number of the other authorities, 
largely the large number of Federal law enforcement authorities 
that we have, and, of course, they have, you know, FBI, Secret 
Service participation in their Command Center, as well. So we 
had our person over there immediately, and that was very 
useful. We had--as I said, we had our person later in the 
morning, when the city's Emergency Management Agency set theirs 
up, that was close to noon, so that was a little bit later. But 
yes, I am very pleased that those procedures worked well. And, 
of course, people's complaints are around what information they 
did or did not know, you know, with respect to our 
communications.
    Mrs. Morella. And fortunately this tragedy will never 
happen again, but it does give us an opportunity, also, to look 
at what we've got in order to come up with some kinds of 
improvements, too, to even--even despite the fact that you've 
done extraordinarily well, to even improve it for the future.
    My time has expired for this round.
    Ms. Watson.
    Ms. Watson. I want to thank all the presenters for their 
presentations. And mass transit is just that, and I was very 
concerned on Tuesday because I live diagonally across from the 
Pentagon, and they closed the 14th Street Bridge. I never did 
get home that night. But I was very, very concerned about mass 
transit, particularly your underground. You had mentioned, one 
of the first presenters, that you were now looking into the 
biological emissions and so on. I'd like you to elaborate. And 
I'm not sure which person made that statement. Yes? And if you 
could elaborate, I'd be very appreciative.
    Ms. Hecker. I would be happy to, but I think Mr. White 
would be in a much better position.
    Ms. Watson. Mr. White.
    Mr. White. What was referred to is about more than 3 years 
ago we entered into an interagency agreement first with the 
Justice Department, and then subsequently party to a broader 
agreement in the Government, not only with Justice but the 
Department of Energy and the Department of Transportation, as 
well.
    Our National Laboratories that worked under the auspices of 
the Department of Energy, such as, you know, Sandia, Livermore, 
Argonne, and those labs, have been working with the Federal 
Government to redeploy military technology, you know, into our, 
you know, domestic economy, and one area that they have had a 
keen interest in, of course, is our urban transit systems, and 
they have--we installed a little over a year ago now a sensor 
that those labs develops, and so these are some of the best 
minds, literally, in our country that are working on this, and 
they've spent multiple millions of dollars already in this 
process of doing this, and these first sensors are now 
installed in the initial part of our system at Smithsonian and 
its connection to the next adjacent station to Federal 
Triangle. And these sensors are now under test, and obviously 
the theory here is that you are able to detect, immediately 
upon the smallest presence of such a chemical agent being 
released, the ability to detect that with alarms going off and 
then trying to have the ability of first responders to have 
access to good information to make decisions on what to do.
    This also includes the ability to remotely look into those 
stations through our CCTV cameras off of laptops that police 
officers, fire personnel, emergency personnel, and WMATA 
personnel would be able to do so we wouldn't have to send 
somebody in there without some sort of visual indication of 
other things that are going on.
    The next step in this process is additional money is being 
appropriated, as I understand it, again through the Energy 
Department, to expand this to another five stations in the 
Metro system. The technology thus far is limited to chemical 
releases. Biological releases, the technology is not quite 
there, but people believe we are close to that technology. And 
our sensors have been set up so that they would be modular, so 
when biological is ready it just gets added to the sensors we 
already have so we don't have to go out and get all new 
sensors.
    This offers--we're the only ones, not only in this country, 
but in the world that is doing this. Others in Europe have 
already experienced tragedy in our urban subway systems, Asia, 
as well, you know, Paris, Munich, Tokyo have all experienced 
unfortunate situations, yet they are not even as far advanced 
as we are in this effort.
    So I know there are many, many people who are very hopeful 
that our testing of this will develop a technology that can be 
usable in our country. It is going to require a considerable 
amount of money, should we choose to make these investments, 
but there is obvious great potential to this.
    And the corollary to that is on the issue of preparedness. 
We are also the only transit system that has quick masks or gas 
masks for our operating personnel, so that gives them 20 
minutes to be able to get out of harm's way the minute that 
there's a detection of the initial presence in small 
quantities. So if the alarms can detect small quantities and we 
can get people out of there, our employees and our customers, 
before they become deadly, then that's what this system is 
hopefully intended to do.
    The ultimate of this system is to develop a set of 
engineering controls so that not only is the release detected, 
but it is controlled through some set of engineering controls 
to collect that which has been released and then to disburse it 
to some other place where it could safely be done so.
    So this is quite advanced kinds of things that are going on 
with that.
    Ms. Watson. Let me just suggest this. As we know, if there 
is any kind of biological matter released, it is borne on the 
airways. You've got passengers by the hundreds and thousands on 
your cars in a tube. And this has been a concern because I 
don't think the terrorism is over yet, and I think probably the 
next attack will be something biological emitted into a 
canister, one of your Metro Rail cars or so on. You might have 
a sensor go off indicating the presence, but it doesn't protect 
the passengers. You just can't move that fast.
    Mr. White. Well, the----
    Ms. Watson. So is there any thinking? What do the airlines 
do? If the cabins become depressurized, immediately something 
drops out so people can then put on a mask. Maybe this is 
something that could be looked at in terms of the second step. 
You can sense something has been emitted, but what do 
passengers do until you can get them off of those cars?
    So this might be something you will want to research, take 
into consideration, since the airlines have dealt with that, 
too.
    Mr. White. Yes. I mean, that's a very good point. I mean, 
we do know that we need to, you know, get people out of harm's 
way immediately, and this is now--you know, you have literally 
minutes to be able to do that, and I think we will certainly 
investigate the idea that you have with respect to the airlines 
about its feasibility. I mean, we've got as many as 1,000, you 
know, people, you know, on our train system, you know, moving 
in and out of that train system with much more regularity than, 
you know, an airline. Once you get on a plane, you're on that 
plane until you get where you want to go. But it's certainly an 
idea that needs to be explored. There's no doubt about it.
    Ms. Watson. Well, that dovetails right into my second 
concern, and that is trying to design some kind of way to 
finance the Metro service. And I know you are within a region. 
You have several States involved. But we look--we have to look 
at some way where you can project into your next fiscal year 
how you are going to finance and what your revenues will be, 
because I think you have an excellent program, but you've got 
to be able to address the concerns that have been mentioned 
here around the table.
    Is it feasible to look at some way that the States involved 
and the Federal Government might increase the cost of ridership 
or assess those services along the way so that you could 
anticipate a certain amount of money annually that you could 
be--that you could count on for maintaining the ridership, 
maintaining the mechanics, maintaining your program?
    Mr. White. Well, we have been attempting, to the best of 
our abilities, to move people in that direction. Several of the 
people who have testified have indicated how complex our 
political and funding decisionmaking process is in our 
metropolitan area. We get money that comes not only from the 
Federal Government to States and the District of Columbia, but 
about five or six other local jurisdictions, as well, and it 
is--and there is no overall regional approach that is in place 
right now. It is a matter of, quite literally, each year, 
certainly in the operating budgets, trying to define your needs 
and passing your hat and going to 8 or 9 or 10 different 
places, hoping that everybody will come up with their fair 
share.
    We have all these nice little formulas in place to 
determine fair share. The problem becomes when one 
jurisdiction, for whatever reason, has other competing 
priorities or has fiscal conditions that don't allow it to get 
to that level, and they say we can't do that. Everybody 
retreats down to their percentage share of reduced level. I 
call it ``lowest common denominator budgeting.'' It provides 
enormous challenge to us. And that's just on the operating 
side. And then, when you throw the capital side in place, as 
well, we do have 6, 10, and 25 capital plans, so we are trying 
to tell people what's coming with a pretty high degree of, you 
know, accuracy to the extent that one can predict that far out.
    The problem really seems to be--and as Mr. Mendelson has 
already indicated--the size of what this metropolitan area is 
dealing with is about $1.7 billion per year for its transit and 
road system that it needs on top of the $3 billion per year 
that it is spending. So these are very, you know, big numbers.
    Ms. Watson. Thank you.
    Mrs. Morella. I'm going to--thank you very much. I know Mr. 
Davis has been very patiently waiting. I'd certainly like him 
to have an opportunity to ask some questions.
    Mr. Davis of Virginia. Thank you.
    Ms. Dorn, let me ask a question. Has FTA reviewed WMATA's 
emergency evacuation plan?
    Ms. Dorn. Yes. Yes, we have. In the context of our 
regulatory authority, we have done so.
    Mr. Davis of Virginia. How does it compare to other mass 
transit systems nationwide?
    Ms. Dorn. Well, it is a good plan. It's very difficult to 
make comparisons because there are so many differences and 
uniqueness, as is the case in public transportation across the 
country. There are ever different situations, whether you have 
a tunnel, whether you have a new subway, an old subway, whether 
it is primarily bus system, all those sorts of things, so 
that's why it is very important that we have security audit 
teams who have familiarity who can come in and give an 
assessment about where we are.
    It is particularly important that those plans be revisited, 
as we have, unfortunately, seen in the last couple of weeks. It 
also is very tempting, I think, to yield to the opportunity or 
the thought that there is some magic formula of technology that 
would reduce the risk when, in fact, there are useful pieces of 
technology that have been discussed by Mr. White.
    Perhaps even more important than that is the aspect of 
training and awareness of all the people and looking at the 
system that you employ in a holistic way. You can have the best 
technology in the world, and if the people are not acquainted 
with it or they're not trained and aware of how to react when 
they see a problem, then the whole system fails. So it really 
needs to be a holistic look, and it must be done by experts in 
the context of that local community and what the risks, both 
geographic and technological, are.
    Mr. Davis of Virginia. Let me ask Mr. White, I mean, I know 
you drill on these things occasionally, because I read about it 
in the paper. This is a heightened awareness in terms of the 
importance where you don't want to have somebody reading from a 
book when this comes. You want it drilled into them where they 
kind of act instinctively. How do you feel about the plan at 
this point? Are you looking to update it, and maybe some 
different perspectives after the last couple of weeks?
    Mr. White. Well, I think one always can look back over an 
event, no matter how well one thinks that they've performed, 
and say, ``This could have been better and that could have been 
better,'' and we are certainly doing that ourselves right now, 
and the extent to which we see things that make sense to change 
our procedures, we'll do that, but, you know, I do believe that 
we have the best set of procedures that exist in this country 
and that we are the most prepared transit system in this 
country.
    But, having said that, that doesn't mean that we can 
guarantee anybody that----
    Mr. Davis of Virginia. Well, the passenger first----
    Mr. White [continuing]. We can keep things from happening. 
We do have to be able to respond if and when they do happen. 
But I do believe that we are very well prepared. We have annual 
exercises that we conduct under the coordination of Metro where 
we take all of the jurisdictions and all of their fire and 
emergency rescue personnel and we replicate a significant 
tragical event, and then we test how well everybody responds to 
that, that tabletop exercise, and then we debrief and critique 
how well everybody did and what issues are human factors, what 
issues are procedures and training, and then we work to improve 
ourselves.
    I meet annually with all of the fire chiefs in the region 
to review what we're doing and to determine what the next steps 
are with respect to our coordination and preparedness. Our 
police officers are probably the only ones in the country who 
get annual terrorist training.
    Mr. Davis of Virginia. Is WMATA's core capacity study 
complete?
    Mr. White. Well, from the point of view of staff 
development, it is largely done. We are----
    Mr. Davis of Virginia. So it's not complete, but it is well 
on its way?
    Mr. White. Yes. To expand what this is, we've talked a lot 
about the issue of capacity, and we have now, for the last year 
now, been engaged in a very comprehensive review of the issue 
of when we reach capacity in our system, what kinds of 
investments we need to make in order to provide additional 
capacity in the system.
    We've put everything under the microscope, from cars to 
stations to our power distribution and signaling systems.
    Next Thursday, Mr. Davis, will be the first presentation 
the staff makes to the committee of our Board of Directors who 
has jurisdiction in reviewing this, and we've got at least two 
workshops scheduled with the Board, and we are hopeful that, 
within the next several weeks, the staff and the Board will 
have come to a single mind as to what our go-forward plans and 
programs need to be to deal with this phenomena of 
accommodating ridership growth, and we're breaking this down 
into 5-year increments looking out over 25 years.
    Mr. Davis of Virginia. So that will then, obviously, impact 
your long-range planning?
    Mr. White. Very much so, yes.
    Mr. Davis of Virginia. But you don't have anything at this 
point you've been able to share with GAO or anyone else, 
because it is still being done internally?
    Mr. White. We have been able to share with the GAO 
everything that we have presented to our Board to date, and it 
is largely--what I will call it, it's the framework for the 
analysis. It's the background date for the analysis.
    Mr. Davis of Virginia. Right.
    Mr. White. But it is not the plan. And we will certainly 
commit ourselves, as we always have in our coordination with 
the GAO, to take them through this analysis, and we'll probably 
be able to do that next week with them.
    Mr. Davis of Virginia. OK. GAO has--I guess you don't have 
any reaction yet until you've seen the total plan?
    Ms. Hecker. No. We did have detailed briefings that will be 
part of the discussion, I think, with the Board. I think the 
magnitude of the expenditures will really bring into relief the 
concern we have, though, about the current budgeting situation, 
and I think at that point the critical urgency of really 
getting some long-term commitments within the region really 
come to fore.
    Mr. Davis of Virginia. Thank you. My time is up. I 
appreciate your responses.
    Thank you, Madam Chairman.
    Mrs. Morella. Thank you very much, Mr. Davis.
    Going back to the security issue--and you mentioned the 
police, Mr. White--do you traditionally have security training? 
Do you have your employees who are trained for security? How do 
you do that?
    Mr. White. We have, I believe it's approximately 325 sworn 
police officers and about another 100 additional personnel in 
our Police Department, and that is now being augmented by 
another 37 hires in this year's budget, and they go through, 
before they step foot on our property, a very lengthy training 
program, and the uniqueness of the requirements of our police 
officers is they need to know the laws of three States.
    Mrs. Morella. Right.
    Mr. White. So they are probably the most educated officer 
in this metropolitan area with respect to compliance with the 
law and other training efforts that they undertake. It's really 
an extraordinary level of training. So that when they get here, 
they are extremely well prepared, and, you know, should you 
have a desire to know in greater detail what is involved with 
that training, I'm sure our chief could answer a question for 
you.
    And then on top of that we have annual types of refresher 
training for our officers, and a few years ago we introduced, 
before really people--anybody was really talking about the 
issue of terrorism, certainly in our country, a program each 
year for refresher training on responding to terrorist types of 
acts----
    Mrs. Morella. Really?
    Mr. White [continuing]. On the Authority with our police 
officers.
    Mrs. Morella. Yes.
    Mr. White. That also has been a byproduct of our 
participation, full-time participation on the FBI's Counter-
Terrorism Task Force.
    So we have been, in my opinion, quite, quite leading edge 
as an agency in the preparedness of our police officers to kind 
of be aware of these issues and to be able to both have the 
intelligence to prevent something from happening, access to 
high-level intelligence information----
    Mrs. Morella. This morning's paper mentions that some 
passengers had complained that they had not seen police 
anywhere on the Metro in the days after the attacks. Is that 
incorrect? Are they just not looking, or in the wrong places?
    Mr. White. I mean, obviously, all of us know how we all 
individually respond after an event like that, and people have 
a high level of anxiety and insecurity, and my own--and I know 
we had all of our personnel out. The chief, you know, canceled 
vacations, brought people back, put them out there. They were 
in high-visibility vests to try and even draw more attention to 
them. And, you know, a number of people in a very crowded 
station, even with an officer in a very loud-colored vest, may 
not see that officer and think that there are not, you know, 
police personnel out there, but, you know, I think that is both 
a product of the heightened anxiety that an individual has in 
the aftermath of this and----
    Mrs. Morella. How many police--I don't know, maybe I should 
be asking this to Mr. McDevitt, but how many police do you 
traditionally have in the Metro stations?
    Mr. White. Let me ask the chief to answer that.
    Mrs. Morella. And on active duty. I don't mean in--maybe 
you'd break it down, administrative versus----
    Mr. McDevitt. Yes. We have on a daily basis probably 40 or 
50 uniformed officers on patrol in the Metro Rail system, and 
they are augmented by bicycle patrols in our parking lots, 
motorcycle patrols, and vehicular patrols where the car is 
parked at various--patrols various parking lots and subway 
stations.
    Mrs. Morella. But you only have, what, 40 or 50 altogether?
    Mr. McDevitt. It's usually one officer per three stations, 
in general, but they can overlap and, depending on transfer 
stations and different problems that we have throughout the 
day, they combine and work together on the situation, depending 
on what we're trying to do.
    Mrs. Morella. Is that an adequate number?
    Mr. McDevitt. Yes, ma'am.
    Mrs. Morella. I mean, I don't know. That--you find that's 
working efficiently? They're in the station, they're in the 
parking lot, they communicate with each other?
    Mr. McDevitt. Yes, they do.
    Mrs. Morella. And so--and each one has a good two, three 
stations, right?
    Mr. McDevitt. They have a minimum two or three stations, 
but they do--like I said, they do have overlaps. The cars 
overlap the foot-beat officers, the bicycles overlap and the 
motorcycles overlap, also, so it is very difficult to say, but 
usually the high-volume stations is where you are obviously 
going to have more presence.
    Mrs. Morella. Yes. I'm pleased that you think it's 
adequate. I don't really know whether that's the case or not. I 
rely on you.
    Director White, you are asking--Mr. Manager, you are asking 
for, like, $20 million I noticed from the appropriation that 
Congress approved. And could you give us just a simple 
breakdown of how you see that money being used?
    Mr. White. We have--and this is based on a very quick 
assessment in order to see if there is an opportunity to access 
this funding source--we have looked at the kinds of things that 
we think should be done to kind of shore up our bus garages, 
our rail stations, and our rail maintenance facilities to 
prevent unauthorized access into those facilities, so a portion 
of the funding is set up to put physical devices--jersey 
barrier and other types of physical devices to try to secure 
our physical assets.
    Another chunk of the money is set up to provide for a 
higher degree of accuracy in what is known as an intrusion 
detection system. We already have the capabilities to know when 
people are--unauthorized people are in our system, but what 
we'd like to do is to be able to narrow it down to a very 
precise location so people can be dispatched very quickly to 
the precise location for which an alarm is tripped. So there's 
about $9 million of the $20 million that has been identified 
for that purpose. There's 5.5 million is identified for the 
perimeter fencing concept that I just explained to you. Another 
$2 million is to complete the work we're attempting to do. We 
have 1,400 cameras in our system, and we've identified 30 of 
our stations as being our high-traffic, high-profile stations, 
and we would like to not only have video capabilities but to be 
able to have recording capabilities. Right now we cannot record 
those cameras so that the recording can take place if people 
are being--if there are people who are being looked at from the 
FBI's list in terms of people who need to be--and we need to 
check to see whether people are moving in and out of the 
system. That would help give us the capability to do that, and 
then to bring all that information back to a central location 
on a real-time basis so it could be accessed with dispatch. 
There's $2 million associated with that.
    Some additional closed-circuit TV and motion detector 
alarms and fencing in our rail yard, $2 million. And then some 
employee ID and access at our central office building and other 
locations to take advantage of the smart card technology that 
we have that our customers now use to pay for our rail system, 
to be able to use that accept--that smart card as an employee 
ID and a building access card so that--you know, to restrict 
access through our facilities by the use of a smart card.
    So those are the five ideas that we have advanced, the sum 
total of which is $20 million.
    Mrs. Morella. Ms. Dorn, that must make them a model for the 
Nation, doesn't it?
    Ms. Dorn. You mean by asking for the money? [Laughter.]
    Mrs. Morella. Somehow, that's something that wherever you 
are, whenever you are there, you always get that kind of 
request. But in terms of all of the procedures that they are 
looking toward----
    Ms. Dorn. Absolutely. A number--first of all, they do have 
an incredibly model system in many respects, and I would also 
add to what Mr. White has said in terms of the importance of 
the training courses and having people be aware, and there are 
a number of--hundreds, actually, of courses that are available 
out there, the need to modify plans to do security audits.
    In addition to the capital needs, there are some more, 
perhaps, basic needs of other systems and the need to take a 
look at the security plan in a new environment.
    So the administration is currently looking through all of 
those needs. We recognize that we are in a new day and a new 
paradigm.
    Mrs. Morella. Yes.
    Ms. Dorn. And with respect to public transportation, we 
have to very quickly prioritize where the needs are and which 
systems have those needs, so we look forward to working with 
WMATA and others to help determine and focus those anticipated 
dollars.
    Mrs. Morella. Yes. I visited a company in my District just 
recently who has come up with a smart card. I'm sure a number 
of others have, too. But it is remarkable the kind of 
information that can be put on them and that there can still be 
privacy.
    Ms. Watson.
    Ms. Watson. Just a quick question. We were concerned about 
some of your stations that have only--this is directed to Mr. 
White--only one exit, and in an evacuation mode would that be 
efficient, effective? So can you comment on this, particularly 
one station. Why don't I not mention it at this time. But you 
might want to comment.
    Mr. White. Yes, you are correct in your observation that 
some number of our stations are single entrance stations. It is 
the way they were designed and how they were sized. You know, 
one of the things that we have been examining and is a part of 
our core capacity study is to take a look at whether we need to 
expand the capabilities of our stations in some regard, 
including putting additional access entrance points into the 
station at some of the high-volume stations. As you would 
imagine, that's a pretty expensive proposition to undertake. It 
is usually at least $20 million to do at a particular location.
    We have been steadily moving in that direction. We've put 
some new entrances in at the Gallery Place Station when the MCI 
Center was built. We're putting some new entrances in at our 
Mt. Vernon location to support the new convention center--
actually, I'm sorry, widening and expanding that one single 
entrance. In Virginia there are two or three locations that we 
are working with Arlington County on to build additional 
entrances into those locations and pursuing separate State 
funding for that purpose.
    So clearly it is something that needs to be done, both for 
evacuation purposes as well as just for, you know, access to 
our system and to deal with the crowding of the system, so we 
are doing our level best to identify where we could benefit 
from doing things such as that, but there are obviously costs 
associated with it.
    Staff does remind me that each of our stations does have, 
in addition to the regular public entrance into that location, 
emergency exits in those stations under emergency conditions, 
and people would also be evacuated should there be such a 
requirement through the emergency exit at those station 
locations.
    Ms. Watson. Is it anticipated that someone could get into 
the station, get down on the tracks, and some way put some kind 
of device that would, I guess, explode and cause some damage to 
the linkages? Has that been anticipated? And if that were the 
case, what would happen from there in terms of the passengers 
and the movement of the trains?
    Mr. White. Yes, I mean, obviously that is what we are 
probably best equipped to deal with at this stage right now in 
terms of being prepared to be able to inspect our assets. You 
know, we have so much train services moving through the system, 
all of our train operators and other personnel who are in the 
stations who are not just our police personnel have special 
training on the kinds of things to look for, unusual things 
that are on the track bed. Standard operating procedures have 
governed how we respond if there's something in our track bed 
with respect to helping our trains until we can determine what 
it is.
    We have sent all of our personnel who are in our stations 
doing various types of job activities, they are all trained in 
how to alert on suspicious packages--there's probably no other 
system in the country that does that, either--so that if there 
is some suspicious package that is dropped and we have a person 
who is cleaning the station or a station manager is in there or 
some other individual, they can--they're trained to alert on 
that.
    And, quite frankly, we have had, you know, several 
instances where we've actually closed the system down and 
evacuated the stations based upon suspicious packages, and have 
responded accordingly.
    So, you know, again, you know, everybody who is responsible 
for public safety and security--and none of us can make 
guarantees to people, but what we can say is that we are as 
prepared as we can possibly be, and forever looking at other 
things that we should be doing, and attempting to do that so 
that we can minimize the possibility or probability of anything 
taking place in our system. But our employees are very well 
trained to do this, and it's not just the police who have the 
responsibility.
    Mrs. Morella. OK. Ms. Sorkin, I would like to ask you, you 
know, as we talk about emergency preparedness, I would like to 
ask you if you are cognizant of plans that would deal with 
people with disabilities in the event of any emergency.
    Ms. Sorkin. I'd like to ask the staff to assist me with 
that question, because I'm not----
    Mrs. Morella. Indeed.
    Ms. Sorkin [continuing]. I'm not aware of any such plans.
    This is David Capozi. He's director of technical programs 
for the Access Board.
    Mrs. Morella. Mr. Capozi, could I ask you to be sworn in? 
Would you raise your right hand.
    [Witness sworn.]
    Mrs. Morella. Thank you, sir.
    Mr. Capozi. I think that's an area that Metro could do a 
better job in informing passengers as to the procedures to 
evacuate. They do have information on the trains as to 
emergency evacuation. It's not particularly spelled out well 
for people with disabilities. And one of the concerns that I 
would have, as a disabled rider, is when the elevators are shut 
down or when the escalators are shut down what procedures are 
in place to allow an individual in a wheelchair to evacuate 
that particular station.
    We've had problems at our building, in particular. We have 
evacuation chairs so that individuals can be moved out of our 
building, but we know where those chairs are, we know where our 
employees are. That's not always going to be the case for 
Metro. And in the stations that's particularly more difficult 
than for a bus would be, and I think Metro needs to--I'm sure 
that they have procedures in place, but the passengers are not 
aware of the ways in which they can be safely evacuated from 
stations.
    Mrs. Morella. I know that Mr. White wants to respond, but 
before he does is there any other issue? I mean, the elevator 
issue is a question not only during an emergency, but if it's 
just not working also, right?
    Mr. Capozi. Right.
    Mrs. Morella. Is there anything else in terms of the Access 
Board concerns that you would like to pose?
    Mr. Capozi. The other issue also is that, not just for 
people who use wheelchairs, but for individuals who can't hear 
the announcements that are made on the stations or on the 
trains.
    Mrs. Morella. OK.
    Mr. Capozi. To get that information to individuals. There 
have been cases where you could be at the end of the line and 
the train is out of service, and there is a person who is deaf 
or hard of hearing on that train and they're not aware that 
train is out of service, and they get taken into the yard and 
have difficulty getting off the train. So think of that in 
terms of an emergency.
    Mrs. Morella. Right.
    Mr. Capozi. How is that information imparted to people who 
can't hear, as well.
    Mrs. Morella. Right. Thank you.
    Mr. White.
    Mr. White. Well, a variety of issues here.
    The issue of elevators is certainly a challenging issue, as 
is the issue of escalators. We have 180 elevators and about 570 
or so escalators. We have the longest and deepest and highest 
quantity number of elevators and escalators of any transit 
system in the country, so it certainly is a challenging effort 
to deal with that.
    We are engaged in--first of all, all of our original 
stations, as we've heard from Ms. Sorkin, the first plans were 
to build them without an elevator until we were sued some, 
whatever it was, 20-something years ago, and forced to do that. 
And now at least one of the things we're trying to do with our 
updated design standards is for each of the new stations that 
we are now building we are putting in two elevators. It is 
expensive to do, but we are putting two elevators into each 
station rather than the one, so on a go-forward basis we even 
have a new set of standards for our stations that would 
hopefully in the future and over time help address the issue of 
a non-functioning elevator in the station.
    We are spending an awful lot of money trying to 
rehabilitate both our escalators and our elevators. We have 
engaged in the first part of that process. We've recently 
rehabilitated 21 elevators with another 11 to go. All of the 
things that were identified with our elevators that needed to 
be done to put us in compliance with the accessibility of the 
ADAAG accessibility guidelines that were described already all 
plotted out, and we've now made all the commitments to the 
kinds of things that we're going to do. We've reported it back 
through the Federal Transit Administration as to when each and 
every one of these things would be accomplished, and in all--
with respect to the things that need to be done with our 
elevators, all of those will be completed in our key stations 
by November of next year, so considerable progress has been 
made there.
    On evacuation, we have actually designed a special 
transport device. It's an ETAC--an Emergency Transport 
Accessible Cart, or something of that name, nature--which is 
actually designed to try to be used to evacuate individuals who 
are in wheelchairs, and we actually test the use of those ETAC 
carts out each year during our annual disaster recovery drill. 
Our community of people that we bring into that disaster 
recovery drill is the disabled community. There are some number 
of disabled people who participate in our drill, and then we 
exercise and test ourselves with respect to our ability to 
evacuate disabled individuals from our trains, and then to be 
able to move them off our trains and along our tracks during 
emergency conditions. So we have those kinds of things that we 
do.
    We do have monthly meetings. We have an Accessible 
Committee that meets with us every month that's got a very long 
list of agenda items that we deal with mutually with our 
Accessibility Committee to try to understand what the interests 
are of disabled individuals and the kinds of things that need 
to be done, and we have a very good forum, and there's a 
committee that's set up to deal with that.
    And other things that we have done to try and help out in 
the areas of announcements is to try and have multiple sources 
of access to information for people. We have our new passenger 
information display signs known as PIDS in all of our rail 
stations where we can put up that information for people who 
have hearing disabilities to utilize the PIDS information. We 
have Web sites. Our Web page has proven to be an enormously 
successful thing that people access quite frequently--we have a 
very technological-savvy group of people who live in our 
metropolitan area--and our Web page has lots of information on 
it with respect to the status of elevators that are out in the 
system and other kinds of things that people need to know in 
terms of navigating the system.
    I might add that the Web page was something else that 
proved to be quite successful on September 11th. We had twice 
the amount of normal hits on that Web page for people who were 
looking for quick, instant information about our services as to 
what was going on on that day of September 11th, and our call 
center also fielded twice the number of calls that it would 
normally field on that same day, as well, for people who were 
accessing information.
    So I'm not here telling you that we're perfect, and I know 
we have things that don't always work as well as they should, 
but we are not neglecting those. We are doing our level best to 
be proactive and responsive to those things that need to be 
addressed, and then we just keep on chipping away, and the 
Federal Transit Administration is quite vigilant in looking 
over our shoulder with great regularity on all of the things 
that we as a grantee are responsible for doing. As a matter of 
fact, have a new--their updated compliance review on 
accessibility issues that's scheduled for next week, so they 
are very vigilant in making sure that we are fulfilling all the 
responsibilities that we need to do.
    Mrs. Morella. Keep chipping away.
    Ms. Watson.
    Ms. Watson. One more final question.
    Could your tunnel sustain a dive bomber similar to the 
planes that went into these buildings, and should they want to 
use that same kind of missile, could your tunnel sustain a dive 
bomb? And could your tunnels be used as safe havens for people 
who are escaping the streets?
    Mr. White. I think, as deep as we are under the ground, 
hopefully it is not a probable event that we'll have a large 
jumbo jet full of flammable----
    Ms. Watson. Anything is probable since September 11th.
    Mr. White. I think the one area that we would be more at 
risk concerned about is our aerial structures would be the 
thing that would cause us the greatest concern. And, for 
example, during that particular day on September 11th we do 
have the one bridge I said that crosses the Potomac River, the 
Yellow Line Bridge, and what we would need to do is just to be 
prepared to divert our service or to hold our trains or stop 
our service in any event under which there are heightened 
security conditions associated with it.
    I can't--I could followup with you, Ms. Watson. I can't sit 
here. I'm not an engineer and I can't give you load standards 
and other things associated with how our structures have been 
constructed. I do know that each and every time we have been 
building, we are always using the strictest engineering and 
technical standards that are in existence at that point in time 
to make sure that we have the, you know, the strongest possible 
infrastructure that we build. We are not California, like you 
are, where we have earthquake standards that are in place, but 
we certainly use all of the other strictest engineering and 
architectural design standards that are in existence. But I 
could followup with you later on on some of these----
    Ms. Watson. I raise that question because it was a matter 
of concern when we were building our system in Los Angeles. 
Could these tunnels and these tracks sustain a quake measuring 
6 to 7 points? And so if these diabolical intelligent minds 
that figured out a way to destroy our towers and the Pentagon, 
anything is probable with them, and I think this is information 
we need to know from the engineers, so I can put that in my 
note to you with some other questions I have, and if you could 
respond I'd appreciate it.
    Mr. White. Absolutely.
    Mr. Trotter. May I add to that, we asked that question some 
months ago. We had an engineer down from, I think from New York 
City. What would happen if the tunnels were full of water, how 
would we deal with an issue like that. And he indicated that in 
Boston, I think, that they had these steel doors that if, in 
fact, there is an attack inside the tunnel these doors would 
close, and it would close off a section that would allow water 
to run into one section but it would be dry in another, so 
those are questions that we asked.
    And most certainly we anticipated some months ago 
situations like this, and this is why the general manager is 
talking about how we train, how we anticipate any kind of 
activity. But most certainly I would think and I think the 
general manager would also say that you have opened our eyes to 
one thing that I don't think that we discussed, and that was, 
in the event of an attack of poison gas, that airplanes, 
something dropped out of the ceiling, you put the--I don't 
think we discussed that, but that's something that we could 
look at.
    Mrs. Morella. And that's a very good question. I'd like you 
to keep us all apprised of that, too, Mr. White. Thank you.
    Mr. Trotter, I want to ask you a question.
    Mr. Trotter. Yes, ma'am.
    rs. Morella. WMATA has established, I understand it, 
Elderly and Handicapped Transportation Advisory Committee. Does 
the Advisory Committee report to WMATA or does it report to--
does it have an executive director, reporting to the executive 
director? What is the responsibility or responsibilities of 
that Advisory Committee? How large is it? Can you give us some 
background information on it?
    Mr. Trotter. Well, I'm not aware of that committee. Mr. 
White can answer that question.
    Mr. White. The committee is a committee to the staff, not a 
committee to the Board, so I think----
    Mrs. Morella. Oh, I see, to the staff. OK.
    Mr. White [continuing]. Your question was what's the status 
of the committee. It is not a Board-appointed committee. It is 
a staff-appointed committee. So the Elderly and Handicapped 
Committee--and, again, you're challenging my recollection of 
exactly how many people are on that committee and we probably 
need to followup with you on it.
    Mrs. Morella. It's a rather new committee though, isn't it?
    Mr. White. It has been in existence--here staff is going to 
bail me out here. It has got its own Chair and 16 
representatives, and they have a process that they utilize to 
determine representation on that committee, and also they self-
determine the chair process to that committee.
    That committee meets regularly on every single month, and 
we do it at times and locations that the committee asks for to 
try and make sure that it is convenient for people to be able 
to participate in the committee. There really are no limits on 
the kinds of items that the committee brings to the staff and 
asks for the staff to either provide information on or to 
challenge the staff about its performance in certain areas.
    There is a regular agenda that is created for each meeting. 
We make sure that, based upon what the interests are of the 
committee, that we bring all the other appropriate staff into 
those committees so that we can make sure that the right people 
with the best knowledge are actually engaging in the discussion 
with the committee. And, again, staff points out that we have 
had this in existence for 15 years, so it has been in existence 
for 15 years and it's a pretty sizable group and it meets quite 
regularly.
    Mrs. Morella. So it's certainly not new, and I would 
imagine it works with the Access Board, does it not? No? Maybe 
that's something that we should look into.
    Ms. Sorkin. I've actually not heard of it until now, so it 
might be a good idea to have greater publicity about it and 
approach some of the local organizations that are involved in 
disability access to get involved.
    Mrs. Morella. Good. So maybe you'll do something about 
that--15 years old. Good.
    Mr. White. We'll re-advertise, Madam Chair, and try to make 
sure----
    Mrs. Morella. Excellent. That will be good. It just seems 
like----
    Mr. White [continuing]. That more people are aware of it.
    Mrs. Morella [continuing]. Some coordination would be very 
helpful.
    Mr. White. Yes.
    Mrs. Morella. Did you want to ask another question right 
now? Then I'd just like to ask a couple of others, and then I 
would like to ask all of the panelists if they would be willing 
to respond to questions that we submit to you in writing. There 
are just so many questions and just really so little time, and 
I hate to hold you all up, also.
    To GAO, Metro fears that by adopting your recommendations 
that they should prepare various scenarios on how funding 
shortfalls would be absorbed by various, you know, asset 
categories under the infrastructure renewal program or by the 
system access and capacity program would result in funding 
sources not funding the optimal capital requirements of Metro.
    What I want to know is: do other transit systems prepare 
capital budgets? How are they funded? And how do you respond 
also to Metro's concern about, you know, preparing the 
alternate scenarios about funding shortfalls and prioritizing?
    Ms. Hecker. Well, that's a very important question. We did 
not look at lots of other systems. We do have pretty reliable 
information, though, that WMATA is one of the very few systems 
that has no reliable, continual source of revenue. That source 
of revenue clearly is a key factor for other organizations to 
do long-term capital planning. They know how much money is 
coming in. They can make projections. They can give 
representations to FTA about the reliability of local matching 
funds for the Federal share. And, therefore, it can be a more 
coherent and strategic approach to long-term planning.
    I think right now the estimates are that they are about 
$3.7 billion short in the current plans that are underway for 
system expansion and system access and capability program. 
These are two different initiatives, and there's shortfalls 
there.
    Basically, there's a plan every year to just try to get 
incrementally the most they can from each of the entities. Our 
concern is that this will--it not only precludes the good kind 
of decisionmaking that's needed for a long-term view of capital 
investments, but it will be severely exacerbated once they 
start looking at these core capacity requirements. They are of 
enormous magnitude, and really any good system needs a long-
term projection source of capital, and we are very concerned 
about how that would impede good strategic planning and good 
appropriate decisionmaking.
    And, in fact, right now most of the major decisions on 
expansion are just done by a locality. The WMATA strategic view 
is really not a key factor, and that was one of our 
recommendations--that it needs to be a system-wide view and 
expansion not just by one locality saying, ``Well, we're going 
to fund an expansion.`` Well, what about the core system where 
they all come into? Where's the commitment to be able to 
accommodate those expansions on the outskirts to be able to be 
accommodated within the core system?
    So this is a very severe problem, and while we agree that 
the current system is that their only hope is to basically cry 
``chicken'' every year and say, ``We've got to get the money,'' 
at some point there needs to be a long-term solution to this 
with a reliable source of funds.
    Mrs. Morella. That gives me an opportunity to let Mr. 
Mendelson know that we haven't forgotten the Transportation 
Planning Board. In your testimony you stated that an enhanced 
funding mechanism or mechanisms are needed to provide a level 
of financial certainty for regional transportation priorities.
    Now, if WMATA suffers shortfalls in funding from its 
primary sources, shouldn't there be alternative plans that 
should be implemented immediately? And what would be your 
suggestions?
    Mr. Mendelson. Well, I did point out in my testimony that 
the funding is one of the critical problems----
    Mrs. Morella. Right.
    Mr. Mendelson [continuing]. And the need to find enhanced 
funding is a priority, one of our priorities. And I also point 
out in my testimony that the process that the Transportation 
Planning Board uses is a very complex, complicated process, and 
it is one that is a combination of factors. It is--first of 
all, it incorporates all of the decisions that have been made 
to date regarding what projects, what funding is needed for 
maintenance operations and so forth. It incorporates--where 
there are new projects, funding has to be identified for those 
projects before we include them in the constrained long-range 
plan, or the subset of that constrained long-range plan, which 
is the TIP--the Transportation Improvement Plan. And so we 
don't--there can't be a project that goes forward unless there 
is funding that is identified for it.
    We are--and then the third factor that comes into play is 
air quality, and, although the Transportation Planning Board is 
not directly responsible for air quality, we are responsible 
for ensuring conformity with the air quality attainment plan 
that is developed by the Metropolitan Washington Air Quality 
Committee at COG. The--and, in fact, we are right now going 
through some pain over this because we are seeing that, having 
looked at the revised or updated emission estimates from the 
mobile sector--and when I say ``mobile sector,'' I am talking 
about all motor vehicles on the road--we see preliminarily that 
we may be exceeding the limits that we have been permitted 
through our air quality attainment plan, and so we are going 
back and looking at how we can reduce emissions, and that 
process--and this may be illustrative of answering your 
question--that process is one of identifying which ways we can 
reduce emissions and then seeing whether the States--and when I 
say ``States,'' I include the District of Columbia--will agree, 
will commit to fund what those initiatives are, and only at 
that point do we include them in our formal plans, which begin 
with the constrained long-range plan, because there is that 
commitment for the funding. And it is only the projects that 
are part of the constrained, long-range plan that can go 
forward.
    That was a little bit of a complicated answer.
    Mrs. Morella. Yes.
    Mr. Mendelson. It's a complicated process.
    Mrs. Morella. You actually got into another question I was 
going to ask about, the air quality in the Washington region 
having deteriorated and our danger of being put into a non-
attainment classification, and in terms of not being in 
compliance with the Federal clean air regulations and what that 
impact would have on WMATA's short and long-range funding for 
capital improvements.
    Mr. Mendelson. Let me correct the premise of your question 
slightly.
    Mrs. Morella. OK.
    Mr. Mendelson. We are a non-attainment area, very serious 
non-attainment area, and we have been all along. We are 
required, under the Clean Air Act, to come into attainment--
that is, to attain compliance with the Clean Air Act--and we 
have a plan for doing that, and that plan shows that we will 
attain clean air under the Federal standards for ozone by 2005.
    Mrs. Morella. Yes.
    Mr. Mendelson. So this is not something new.
    Mrs. Morella. Yes.
    Mr. Mendelson. We do have this plan. The plan was approved 
earlier this year by the EPA, and it is also being challenged 
in court.
    The issue is, for us, on the regional level, is ensuring 
that we continue as we get new data, ensuring that we continue 
to comply with the requirements of our plan.
    The plan requires substantial reduction in emissions from 
various categories. For instance, if I remember correctly, 
point sources, which are power plants, the plan requires that 
there be a reduction of about 70 percent of emissions of 
nitrous oxides between, if I remember correctly, 1999 and 2003. 
In the mobile sector--again, that's motor vehicles--the 
reduction is not as great, but, if I remember correctly, it's 
from about 200 tons per day of nitrous oxides to about 160 tons 
per day between now and 2003.
    And so--and WMATA is a critical part of this because WMATA 
is not polluting. If we cannot achieve attainment, then we do 
jeopardize Federal funding, and that was the other part of your 
question. We jeopardize Federal transportation funding.
    What the impact of that is for WMATA is not crystal clear, 
and Mr. White may be able to answer this better than I. My 
understanding is that some public transit projects are 
conformity exempt. They go forward. And other projects would 
have to argue that they should be conformity exempt.
    Mrs. Morella. I'm going to ask you in writing to give me 
your comments about whether there should be a regional 
transportation group to deal with, as a central piece, transit 
and WMATA to get your opinions on all of that.
    I look forward to sending you a list of some possible 
questions that you can respond to. Look forward to also 
particularly hearing about the improvements that are being made 
and about the planning that you will be doing.
    I can understand the challenges and the difficulties of 
actually prioritizing so that the world knows, in terms of what 
that might do to the funding level, but it is also critically 
important.
    I probably will be asking you in your questions also about 
whether you do anything with child care centers. It seems to me 
I remember one at Shady Grove. I don't know. And as we look to 
trying to reduce the cars on the road and the use of transit, 
which is increasing, seems to me if you can cut back on 
people's need to drive from one place to another, that also 
helps. So I look forward to hearing about that.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 81350.094
    
    [GRAPHIC] [TIFF OMITTED] 81350.095
    
    [GRAPHIC] [TIFF OMITTED] 81350.096
    
    [GRAPHIC] [TIFF OMITTED] 81350.097
    
    [GRAPHIC] [TIFF OMITTED] 81350.098
    
    [GRAPHIC] [TIFF OMITTED] 81350.099
    
    [GRAPHIC] [TIFF OMITTED] 81350.100
    
    [GRAPHIC] [TIFF OMITTED] 81350.101
    
    [GRAPHIC] [TIFF OMITTED] 81350.102
    
    [GRAPHIC] [TIFF OMITTED] 81350.103
    
    [GRAPHIC] [TIFF OMITTED] 81350.104
    
    [GRAPHIC] [TIFF OMITTED] 81350.105
    
    [GRAPHIC] [TIFF OMITTED] 81350.106
    
    [GRAPHIC] [TIFF OMITTED] 81350.107
    
    [GRAPHIC] [TIFF OMITTED] 81350.108
    
    [GRAPHIC] [TIFF OMITTED] 81350.109
    
    [GRAPHIC] [TIFF OMITTED] 81350.110
    
    [GRAPHIC] [TIFF OMITTED] 81350.111
    
    [GRAPHIC] [TIFF OMITTED] 81350.112
    
    [GRAPHIC] [TIFF OMITTED] 81350.113
    
    [GRAPHIC] [TIFF OMITTED] 81350.114
    
    [GRAPHIC] [TIFF OMITTED] 81350.115
    
    [GRAPHIC] [TIFF OMITTED] 81350.116
    
    [GRAPHIC] [TIFF OMITTED] 81350.117
    
    [GRAPHIC] [TIFF OMITTED] 81350.118
    
    Mrs. Morella. And, Mr. Mendelson, maybe more people could 
also drive hybrid cars. Since I have one, I say that. That, 
indeed, cuts down on the pollution by, like, 90 percent.
    Ms. Watson, do you have any final questions you would like 
to ask?
    Ms. Watson. No.
    Mrs. Morella. You've all been very patient. It is a very 
important issue. I appreciate your being here, and we'll 
continue to be in touch with you.
    Thank you all very much. Our subcommittee is now adjourned.
    [Whereupon, at 12:20 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]

                                   - 

</pre></body></html>
